<html>
<title> - TECHNOLOGY RESEARCH AND DEVELOPMENT EFFORTS RELATED TO THE ENERGY AND WATER LINKAGE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  TECHNOLOGY RESEARCH AND DEVELOPMENT
                         EFFORTS RELATED TO THE
                        ENERGY AND WATER LINKAGE

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2009

                               __________

                           Serial No. 111-41

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
50-662                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Energy and Environment

                  HON. BRIAN BAIRD, Washington, Chair
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
EDDIE BERNICE JOHNSON, Texas         ROSCOE G. BARTLETT, Maryland
LYNN C. WOOLSEY, California          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
DONNA F. EDWARDS, Maryland           RANDY NEUGEBAUER, Texas
BEN R. LUJAN, New Mexico             MARIO DIAZ-BALART, Florida
PAUL D. TONKO, New York                  
JIM MATHESON, Utah                       
LINCOLN DAVIS, Tennessee                 
BEN CHANDLER, Kentucky                   
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
            JETTA WONG Democratic Professional Staff Member
         ELIZABETH CHAPEL Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                      JANE WISE Research Assistant


                            C O N T E N T S

                              July 9, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     7

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     7

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

                               Witnesses:

Dr. Kristina M. Johnson, Under Secretary of Energy, U.S. 
  Department of Energy
    Oral Statement...............................................     9
    Written Statement............................................    14
    Biography....................................................    22

Ms. Anu K. Mittal, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    29

Dr. Bryan J. Hannegan, Vice President, Environment and 
  Generation, The Electric Power Research Institute
    Oral Statement...............................................    29
    Written Statement............................................    33
    Biography....................................................    50

Mr. Terry Murphy, President and Founder, SolarReserve
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    67

Mr. Richard L. Stanley, Vice President, Engineering Division, GE 
  Energy
    Oral Statement...............................................    68
    Written Statement............................................    69
    Biography....................................................    75

Discussion
  The Effects of Population Growth...............................    76
  Consideration of Water in Energy Legislation...................    77
  Climate Change Impacts.........................................    79
  Funding Public-Private Partnerships............................    79
  Increasing Efficiency..........................................    80
  Water and Nuclear Power........................................    81
  More on Efficiency Practices...................................    83
  Water in Coal Carbon Sequestration.............................    84
  Pricing Carbon.................................................    85
  Greatest Impact Technologies...................................    86
  Closing........................................................    87

              Appendix: Answers to Post-Hearing Questions

Dr. Kristina M. Johnson, Under Secretary of Energy, U.S. 
  Department of Energy...........................................    90

Dr. Bryan J. Hannegan, Vice President, Environment and 
  Generation, The Electric Power Research Institute..............    91


 TECHNOLOGY RESEARCH AND DEVELOPMENT EFFORTS RELATED TO THE ENERGY AND 
                             WATER LINKAGE

                              ----------                              


                         THURSDAY, JULY 9, 2009

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  Technology Research and Development

                         Efforts Related to the

                        Energy and Water Linkage

                         thursday, july 9, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, July 9, 2009 the Subcommittee on Energy and 
Environment will hold a hearing entitled: ``Technology Research and 
Development Efforts Related to the Energy and Water Linkage.''
    The hearing will explore the role of the Federal Government and 
industry in developing technologies designed to address the link 
between our energy and water resources and how deployment of such 
technologies could help to avoid resource supply disruptions. Energy 
and water are directly linked. Water is essential for energy generation 
and fuel production--it is used in energy resource extraction, 
refining, processing, transportation, hydroelectric generation and 
thermoelectric power plant cooling and emissions scrubbing. Equally 
important is the energy needed for water pumping, treatment, 
distribution and end-use requirements. Climate variability and demand 
growth affect both our water and energy resources, so it is important 
to acknowledge their interdependency and develop technologies and adopt 
practices that allow us to manage these resources effectively. The 
Subcommittee will hear from expert witnesses who will discuss the 
issues relevant to deployment of advanced technologies related to 
energy-water issues.

Witnesses

        <bullet>  Dr. Kristina M. Johnson is the Under Secretary of 
        Energy. Dr. Johnson will testify on the current research, 
        development and demonstration activities at the Department of 
        Energy to advance technologies related to the link between our 
        energy and water resources. She will include a discussion of 
        the Department's program offices' coordination in this area.

        <bullet>  Ms. Anu Mittal is the Director, Natural Resources and 
        Environment at the U.S. Government Accountability Office (GAO). 
        Ms. Mittal will provide a preview of two GAO reports due later 
        this year. One report covers water use in power generation and 
        the second report addresses water use in biofuel production. In 
        addition, she will identify some of the technology research and 
        development gaps related to the energy and water linkage.

        <bullet>  Dr. Bryan Hannegan is the Vice President, Environment 
        & Generation for the Electric Power Research Institute. Dr. 
        Hannegan will testify on the water use at thermoelectric power 
        generation plants, including future water use anticipated 
        should carbon capture and storage technologies be deployed 
        broadly. He will describe existing and advanced cooling 
        technologies and operation practices available today and the 
        challenges and benefits with deployment of these technologies 
        and strategies. He will also comment on the Department of 
        Energy's energy/water RD&D programs.

        <bullet>  Mr. Terry Murphy is the President of SolarReserve. 
        SolarReserve builds utility-scale solar power plants to deliver 
        energy using integrated storage. The company is headquartered 
        in Santa Monica, CA. Mr. Murphy will provide an overview of 
        concentrating solar thermal technologies and how water is used 
        in the generation process. He will discuss the different 
        cooling technologies used today and under development. He will 
        also comment on the Department of Energy's energy/water RD&D 
        programs.

        <bullet>  Mr. Richard L. Stanley is Vice President, Engineering 
        Division with GE Energy. GE Energy is one of the world's 
        leading suppliers of power generation and energy delivery 
        technologies. Mr. Stanley will provide an overview of the range 
        of technologies GE is developing to address energy-water 
        related issues, including water filtration, desalinization, 
        organic rankine cycle, Jenbacher gas engines and advanced gas 
        turbine technologies. He will also discuss research and 
        development needs in this area and comment on the Department of 
        Energy's energy/water RD&D programs.

Thermoelectric Power

    Water is a critical resource in the thermoelectric power industry. 
The primary purpose for water withdrawal is cooling. Thermoelectric 
power generation uses a variety of fuel sources including coal, 
nuclear, oil, natural gas, and the steam portion of gas-fired combined 
cycle plants. The United States Geological Survey (USGS) estimates that 
thermoelectric generation accounts for approximately 136,000 million 
gallons per day of freshwater withdrawals, ranking only slightly behind 
agricultural irrigation as the largest source of freshwater withdrawals 
in the United States.\1\ According to the National Energy Technology 
Laboratory Director's testimony before the Senate Energy and Natural 
Resources Committee earlier this year, nuclear power plants consume 
approximately 40 percent more water than an equivalent contemporary 
sub-critical pulverized coal (PC) plant and natural gas combined cycle 
plants consume approximately 60 percent less than the PC plant.
---------------------------------------------------------------------------
    \1\ Feeley, Thomas J., et al., 2006 ``Department of Energy/National 
Energy Technology Laboratory's Power Plant-Water R&D Program,'' 
Pittsburgh, PA.
---------------------------------------------------------------------------
    Water availability represents a growing concern for meeting our 
future power demands. As our population grows, our demand for water 
continues to rise while supplies are dwindling. In water-stressed areas 
of the United States, power plants will increasingly compete with other 
sectors of the economy and end users for water resources. In addition, 
water and energy-related regulatory policy may add to the challenge of 
operating our existing power plants and permitting new thermoelectric 
power plants. As water use decisions become more difficult, it is 
apparent that there is a role for the federal government to manage a 
comprehensive research, development and demonstration strategy to help 
ensure we are well-equipped to prevent energy and water supply 
disruptions.
    In discussing water use at thermoelectric power plants, it is 
necessary to make a distinction between water withdrawal and water 
consumption. Water withdrawal represents the total water taken from a 
water source or reservoir, such as a lake or river. Water consumption 
measures the amount of water withdrawal that is not returned to the 
source. Freshwater consumption for thermoelectric uses appears low at 
only three percent when compared with other use categories such as 
irrigation which is responsible for 81 percent of water consumed.\2\ 
Still, at that consumption rate, thermoelectric power plants consumed 
more than 32 billion gallons per day.
---------------------------------------------------------------------------
    \2\ Feeley, Thomas J., et al., 2007, ``Water: A Critical Resource 
In the Thermoelectric Power Industry,'' U.S. Department of Energy, 
National Energy Technology Laboratory, Pittsburgh, PA.
---------------------------------------------------------------------------
    Thermoelectric power plants require large quantities of cooling 
water to produce electricity. There are two types of cooling water 
system designs: Once-through or open loop and re-circulating or closed 
loop. In once-through cooling systems, a local water body supplies the 
water, which is circulated through the heat exchangers, and then the 
warm water is discharged back into the same water body from which it 
came. This type of system has a high water withdrawal, but low water 
consumption. Closed-loop cooling refers to cooling systems in which 
water is withdrawn from a source, circulated through heat exchangers, 
cooled and then recycled. Subsequent water withdrawals for a closed-
loop system are used to replace water lost to evaporation or leakage, 
for example. There are three common types of closed loop cooling water 
systems: wet cooling towers, cooling ponds and air cooled (dry re-
circulating). Wet cooling tower systems withdraw 30-50 times less water 
than once-through systems, but 75 percent of the water is lost during 
plant operations.\3\ Dry re-circulating cooling systems use either 
direct or indirect air-cooled steam condensers. The dry re-circulating 
systems, in general, have minimal water withdrawal and consumption. In 
the United States, existing thermoelectric power plants use all of 
these cooling systems with approximately 42 percent of generating 
capacity using once-through, 42 percent using wet cooling towers, 14 
percent using cooling ponds, and just under one percent using dry re-
circulating systems.\4\
---------------------------------------------------------------------------
    \3\ Feeley, Thomas J., et al., 2007, ``Water: A Critical Resource 
In the Thermoelectric Power Industry,'' U.S. Department of Energy, 
National Energy Technology Laboratory, Pittsburgh, PA.
    \4\ Ibid.
---------------------------------------------------------------------------
    Given that the energy-water relationship is already under strain, 
the Department of Energy's National Energy Technology Laboratory (NETL) 
is developing advanced technologies targeted at reducing freshwater 
withdrawal and consumption associated with thermoelectric power 
generation. NETL's Innovations for Existing Plants (IEP) program has 
two major objectives: 1) develop cost-effective technologies for 
commercial demonstration by 2015 that can help reduce freshwater 
withdrawal and consumption by 50 percent at plants equipped with wet 
re-circulating cooling technology and 2) develop cost-effective 
technologies for commercial demonstration by 2020 that can reduce 
freshwater withdrawal and consumption by 70 percent.
    The following research and development categories include the major 
initiatives supported by NETL: alternate sources of cooling water make-
up, including produced water, mine water or reuse of treated 
wastewaters; advanced cooling technology; reclamation of water from 
combustion flue gas for use as cooling; and reduction of cooling tower 
evaporative losses. In Fiscal Year 2009, $12 million is available for 
NETL's energy/water R&D under the IEP program. The President's Fiscal 
Year 2010 budget request does not continue funding this R&D.

Oil, Gas and Oil Shale

    Initial extraction of oil and gas does not require a lot of water, 
but as oil deposits are depleted enhanced oil recovery (EOR) techniques 
are applied to extract additional oil from existing wells. These 
techniques oftentimes involve injection of water or steam into the well 
to extract the additional resource. In 1995, the American Petroleum 
Institute estimated that oil and gas operations generated 18 billion 
barrels of produced water and estimates that over 70 percent of the 
produced water is recycled and used for EOR. The Department of Energy 
estimates that conventional petroleum refineries consume one gallon of 
water for each gallon of oil refined. Additional water is needed for 
cooling during the refining process. DOE also estimates that the U.S. 
has 500 billion to 1.1 trillion barrels of oil in the form of oil shale 
deposits. Recovery of these deposits could consume two to five gallons 
of water per gallon of refinery-ready oil, according to DOE.

Renewables

    The use of water in the extraction and processing of petroleum-
based transportation fuels is relatively small compared to the 
electric-generating industry. However, similar to fossil and nuclear 
technologies many renewable energy technologies use water in their 
generation process. The Department's Office of Energy Efficiency and 
Renewable Energy has started to address these issues through their 
Industrial Technologies Program (ITP) as well as through studies and 
research activities in individual renewable energy technology programs. 
Concentrating solar thermal, geothermal and biomass combustion are all 
renewable technologies which generate power through conventional heat-
engine operating cycles which are generally water intensive. One area 
of research funded by ITP is the organic rankine cycle (ORC), which can 
improve recovery of waste heat in industrial processes and be used in 
solar thermal and geothermal operations. An ORC uses an organic fluid 
instead of steam to power a high-efficiency turbine, hence reducing 
water use and increasing energy efficiency. Additional efficiency gains 
can be achieved for solar thermal and geothermal technologies if a 
power plant forgoes a wet cooling technology for the more expensive dry 
cooling technology, similar to fossil power plant technologies.
    Biofuel production has come under significant scrutiny for its use 
of water. From feedstock production to final conversion to a liquid 
transportation fuel, biofuels have an impact on water resources. 
Dedicated energy crops grown specifically for energy production can be 
very water intensive if irrigation is necessary for sufficient yields. 
On the other hand low-value woody biomass, algae, agriculture residues 
or other organic waste streams used as feedstocks for energy production 
biomass have a much smaller demand for water. Additionally, water is 
used in several other processes during conversion, but the biorefining 
process is modest in absolute terms compared to the water applied and 
consumed in growing the plants used to produce the biofuels. According 
to a 2007 Sandia National Laboratories report a traditional dry mill 
corn-ethanol facility uses four gallons of water per gallon of ethanol 
produced (gal/gal).\5\ A new study by the Argonne National Laboratory 
has shown that this number has significantly decreased over time.\6\ 
Technologies being researched such as gasification and pyrolysis may 
also help to decrease the need for water in biofuels production.
---------------------------------------------------------------------------
    \5\ Pate, R., M. Hightower, C. Cameron, W. Einfeld. 2007. Overview 
of Energy-Water Interdependencies and the Emerging Energy Demands on 
Water Resources, Sandia National Laboratories, Los Alamos, NM, USA.
    \6\ Wu, May. 2008. Analysis of the Efficiency of the U.S. Ethanol 
Industry 2007, Center for Transportation Research, Argonne National 
Laboratory, delivered to Renewable Fuels Association.
---------------------------------------------------------------------------
    At the same time, there are positive synergies between some 
renewable energy technologies and water. For example, biogas produced 
by anaerobic digestion of organic waste is a co-product of wastewater 
treatment facilities. Biogas is more than 60 percent methane, a 
valuable energy resource. About 3,500 of the large wastewater 
facilities already utilize wastewater to produce biogas which can be 
used as a substitute for natural gas. The biogas can also be utilized 
for internal process heat needed to complete the digestion process. 
Anaerobic digestion reduces the need for fossil based natural gas while 
also treating the wastewater. The Point Loma Plant in San Diego, 
California is a successful illustration of anaerobic digestion of 
wastewater. The plant has the capacity to treat 240 million gallons of 
wastewater per day, is energy-self-sufficient and sells excess energy 
in the form of electricity back to the grid. In 2000, the city of San 
Diego saved more than $1.4 million in operational energy costs and sold 
$1.4 million in excess power to the electrical grid while also treating 
its wastewater.
    As future demands for energy and water continue to grow, the 
reliability of our energy and water supplies is likely to be an 
increasing challenge. In 2005, Congress directed the Department of 
Energy to develop a report to Congress identifying current and emerging 
national issues associated with the link between our energy and water 
resources and develop an Energy-Water Research and Development Roadmap. 
That roadmap is now under review by the new Administration.
    Chairman Baird. Welcome to today's hearing. We have just 
received information that we expect a whole series of votes in 
about 15 minutes, and there are, what did we hear, 30?
    Staff. Thirteen.
    Chairman Baird. Thirteen? That is good, 13 votes, which 
will take a long time. Accordingly, what I am going to do is 
dispense with any opening comments except to thank our 
witnesses for their presence today, for their expertise, and 
for their input on an important topic.
    I will introduce you briefly. We will have five minutes for 
opening comments from each of the witnesses. With luck and 
alacrity, we can possibly get through at least the opening 
comments and then depending on how it looks over on the Floor, 
we will proceed.
    I will recognize my colleague and friend, Mr. Inglis, for 
brief opening comments as well.
    [The prepared statement of Chairman Baird follows:]

               Prepared Statement of Chairman Brian Baird

    Good morning and welcome to today's hearing on Technology Research 
and Development Efforts Related to the Energy and Water Linkage.
    I would like to welcome our expert panelists who will discuss the 
ongoing RD&D activities to develop technologies that will help us to 
avoid disruptions in supplies of these two vital resources.
    Climate variability and demand growth affect both our water and 
energy resources, and it is critical that we acknowledge that 
interdependency and develop technologies and adopt practices that allow 
us to manage these resources most effectively.
    If new power plants continue to be built with today's technologies, 
consumption of water for electrical energy production could more than 
double by 2030 from 3.3 billion gallons per day in 1995 to 7.3 billion 
gallons per day.
    During the last Congress and continuing into this year, the 
Committee brought attention to water supply challenges through a series 
of hearings and passage of several pieces of legislation.
    Additionally, during the last Congress Chairman Gordon requested 
that the Government Accountability Office undertake several analyses to 
explore the relationship between energy and water resources. We are 
pleased to have GAO here today to talk about some preliminary findings 
of their work.
    We have tended to think about these two essential resources 
independently. However, the strong linkage between water and energy 
requires that we make a more concerted effort to ensure that water and 
energy technologies are being developed synergistically.
    Again, I would like to thank the witnesses for their participation 
today and I look forward to your testimony.

    Mr. Inglis. I agree with you, Mr. Chairman. We should go 
with alacrity.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Good morning and thank you for holding this hearing, Mr. Chairman.
    This summer, my home State of South Carolina got the good news that 
we finally emerged from a long and difficult two year drought. The 
drought forced us to consider how we use water at home, in irrigation, 
and for industrial use. Especially in the upstate, we'll be dealing 
with the long-term impacts of this drought for quite some time.
    I bring this up to highlight the importance of water scarcity in 
the decisions we make in our economy and communities. Climate change 
will further stress our water resources and make water management more 
difficult. While we need to make wise decisions to minimize our impact 
on the natural environment, we also need to consider how changes in our 
environment may impact the way we do business.
    Electricity generation is the second largest source of freshwater 
withdrawals in the United States. The technologies we use today are 
very water inefficient, despite the availability of cooling systems 
that substantially reduce our water needs. As we change our choice of 
fuels in order to minimize our greenhouse gas emissions, we should also 
work to minimize the strain we put on our limited water resources. I'm 
encouraged by the work of DOE's National Energy Technology Laboratory 
to develop the technologies that will reduce our water withdrawal and 
consumption.
    Fossil fuel and renewable energy resources also demand a 
considerable amount of energy in the generation process. I am looking 
forward to learning about the technologies and techniques that will 
help us recover and use this energy with a limited impact on other 
natural resources.
    There's one aspect of energy and water linkage that this hearing 
fails to address. Our oceans are a tremendous source of kinetic energy 
that we can harness without consuming water. Despite millions of 
dollars in federal investment, not a single project to harness that 
energy has been added to our electricity grid. I hope that our 
committee will explore these alternatives at the cutting edge of 
renewable energy development.
    Thank you again for holding this hearing, Mr. Chairman, and I look 
forward to hearing from our witnesses.

    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good Morning. Thank you, Mr. Chairman, for holding today's hearing 
to examine the link between energy and water and explore how the 
government and the private sector can best coordinate efforts to 
develop and deploy technology to utilize the energy-water nexus.
    Water is a vital component of nearly every form of energy 
production. It creates energy through hydroelectric power, provides the 
cooling element necessary for all thermoelectric power generation, aids 
in the extraction of oil from nearly depleted wells, and is necessary 
for the growth of biomass and the creation of renewable energy sources. 
In addition, energy is necessary to move, treat, and use water. The 
connection between these two important resources makes the increased 
demand for energy and the limited supply of water more troublesome.
    Research, development, and demonstration of technology and 
practices that will stabilize and conserve our water supply while 
continuing to meet our energy demands will require a coordinated effort 
by the Department of Energy, the 20 other federal agencies that engage 
in water research, and the private energy sector. I am pleased to see 
representatives from each of those stakeholders here today, and I look 
forward to hearing their testimony.
    In particular, I am interested in hearing about the use of water 
for renewable energy production, in particular ethanol, biodiesel, and 
other biofuels. I would like to hear from our witnesses what their 
current research efforts on this issue are and how this committee can 
assist you in moving those efforts to the development and demonstration 
phases.
    Again, I welcome our panel of witnesses and I thank the Chairman.

    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Good morning, Mr. Chairman.
    As Chair of the Water Resources and Environment Subcommittee of the 
House Committee on Transportation, water is a subject of great interest 
for me.
    The efforts of the Science Committee can greatly enhance that of 
the Water Resources Subcommittee, as research is needed to better 
understand and manage this critical resource.
    In Dallas, the Trinity River is a wonderful resource.
    It feeds six thousands of acres of the Great Trinity Forest. It is 
an important source of natural beauty and inspires nature enthusiasts 
to this day.
    However, improper management of the lands around the Trinity River 
put the city of Dallas and surrounding areas of flooding.
    The Trinity River Project is one of the most monumental public 
works and economic development projects every attempted.
    As flood protection, recreation, environmental restoration, 
economic development, and major transportation projects converge along 
the Trinity River, residents and visitors from around the world will 
have a new and exciting image of the City of Dallas.
    I have been heavily engaged in seeing that the Trinity River 
Project will not only improve traffic flow, but it will also give 
citizens access to wildlife, trails, parks, lakes, and the Great 
Trinity Forest.
    The project also seeks to include a world-class equestrian center, 
as well as the award-winning Audubon Environmental Interpretive Center.
    All of these special features will stimulate new urban development 
such as waterfront condominiums, beautiful townhouses, office towers, 
and sidewalk cafes and shops.
    Today, this subcommittee will hear more about the connection 
between energy and water.
    It is our hope to hear about the future of thermoelectric power. We 
hope to hear about new technologies to reduce freshwater withdrawal and 
consumption.
    We hope to learn more about how to mitigate actions such as 
irrigation that account for 81 percent of all freshwater consumed.
    In Texas, oil extraction and production is a major economic driver. 
I will be interested to hear, in more detail, how we can use less water 
for the enhanced oil recovery techniques that are water-intensive.
    In areas of Texas that have been severely impacted by drought, I am 
curious to know if those techniques had to be reduced because of the 
water shortage.
    As energy demands increase, it will become more important for our 
nation to innovate, when it comes to our energy supply.
    Welcome to today's witnesses. Your knowledge and interest in this 
issue will be valuable to Members of the Subcommittee.
    Thank you, Mr. Chairman. I yield back the balance of my time.

    Chairman Baird. Alacrity being the order of the day, it is 
my privilege to introduce our witnesses quickly. Dr. Kristina 
Johnson is the Under Secretary of Energy of the U.S. Department 
of Energy. Ms. Anu Mittal--is that properly pronounced--is the 
Director of Natural Resources and Environment at the U.S. 
Government Accountability Office. Dr. Bryan Hannegan is the 
Vice President of the Environment and Generation for the 
Electric Power Research Institute. Mr. Terry Murphy is the 
President of SolarServe. Is that all proper?
    Mr. Murphy. SolarReserve.
    Chairman Baird. SolarReserve? I knew I was missing 
something. Mr. Richard L. Stanley is the Vice President of the 
Engineering Division of GE Energy.
    As witnesses know, we will have five minutes for each 
person's spoken testimony followed, apparently in this case, by 
a break and then a series of questions from the Committee. 
Thank you all, and with that, Dr. Johnson, please begin.

   STATEMENT OF DR. KRISTINA M. JOHNSON, UNDER SECRETARY OF 
               ENERGY, U.S. DEPARTMENT OF ENERGY

    Dr. Johnson. Thank you, Mr. Chairman, and Members of the 
Committee. I definitely appreciate the opportunity to be here 
to provide testimony on DOE's programs for developing water-
efficient and environmentally sustainable energy technologies.
    Let me just say a couple words about my background. To 
demonstrate my particular and passionate interest in this area, 
I am a third-generation engineer. My grandfather worked with 
George Westinghouse at the first turn of the last century in 
helping to electrify the country. My father then worked for 37 
years with Westinghouse, started his career in hydroelectricity 
and ended it in nuclear. I was inspired by their examples of 
using energy and technology to better their communities, and 
therefore, it is a privilege to be here to serve the country in 
this position.
    I also understand the purpose of this hearing is to talk 
about the relationship between energy and water resources and 
to explore the ways that we work across not only the programs 
within the Department but also the different agencies. So to 
that point, I just want to say a word about my academic 
background. After getting a Ph.D. and teaching for many years, 
I became a dean and then a provost. Interestingly enough, the 
Under Secretary of Science has also been a provost, and what do 
provosts do? Most people don't know. Our goal is to make the 
whole greater than the sum of the parts. And so in thinking 
about these issues I was particularly pleased to be here 
because I personally had not explored in depth the relationship 
between energy and water, and after preparing for this hearing, 
it is quite an interesting story. So without further ado, let 
me continue.
    In thinking about the energy-water nexus, it is important 
to step back in my view and think about climate. Climate 
affects water, water affects energy. The way we use energy 
affects climate. And it is a critical time right now for our 
country and our planet. Global climate change is real and it is 
happening. And that was the important message from the U.S. 
Global Climate Change Research Program that released a report 
three weeks ago. The report showed that there had been 
significant impact already occurring, including changes in 
precipitation across the U.S., more rainfall in the Northwest, 
and less in the Southeast. The oceans are becoming more acidic, 
and studies have shown, and in fact a statement released by the 
Academies of Sciences of 70 countries including the United 
States, said that at the current emission rates of greenhouse 
gases, the coral reefs and the polar ecosystems will be 
severely affected by 2050, if not earlier. Marine and food 
supplies are likely to be reduced with significant implications 
for food production and security in regions that depend on fish 
protein for human health and well-being. And finally, ocean 
acidification is irreversible on time scales of tens of 
thousands of years.
    So in thinking about energy and water, we also have to 
think about climate, and we must address the global climate 
change now or we are in danger of losing the coral reefs, the 
Amazon, and the Arctic caps.
    So how does climate specifically affect water and energy 
resources? Professor Roni Avissar from Duke University, his 
models have shown that the deforestation of the Amazon resulted 
in, or contributed greatly to, the drought that we experienced 
in the mid part of this decade in the West, and if we think of 
just a graphic for a moment, so less water, about 90 percent of 
our electricity is derived from thermoelectric generation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    So in the first graphic here, I just want to show that 
where the droughts have occurred, we also see that conventional 
electric power sees a tremendous decrease of about 35 percent.
    So 90 percent of our electricity requires water to cool the 
thermal generation of electricity, and so when we have 
droughts, we don't have the water to generate the electricity. 
And the drought in the Southeast in 2007 in August, our nuclear 
plants in that area had a reduction of 50 percent of electrical 
generation. So there is an intimate relationship between 
climate, water, and energy.
    So I want to talk a little bit about what we are doing in 
the Department of Energy to address this issue with our R&D. I 
will say recent advances in coal-fired plants and gas plants, 
i.e., integrated gasification combined cycle plants and natural 
gas combined cycle plants, are about 20 percent more efficient 
than the older pulverized coal plants, and they consume 40 
percent to 60 percent less water. That is the good news.
    The other news is that 80 percent of those plants are older 
than 30 years. So a big consideration moving forward is this 
aging infrastructure that we have. We have to be ready that 
when they, the fleet that is older and aging, can be turned 
over, we have to have that more efficient technology ready to 
deploy. The more efficient the power plants, the less water. So 
this is one of the areas where we are working.
    So first let me just summarize then that our approach has 
been three-pronged. First is energy efficiency. We use less 
energy, we need less water. Second is the energy that we 
generate, let us make it more efficient. Third, renewables use 
less water--for example, solar PV, wind--we have goals for 2030 
where we believe that by 2030, 20 percent of our electrical 
generation will come from wind, six percent can come from 
solar, and a significant percentage from geothermal and also 
biomass, and hydroelectric we anticipate could be as high as 10 
percent.
    By reducing the electric generation from thermoelectric to 
these other renewables, we can actually reduce the amount of 
water we need by possibly a third or more.
    So first, it is important to look at energy conservation 
and efficiency. I would like to just mention that energy 
efficiency in our buildings, industry and transportation 
presents a tremendous opportunity to reduce our energy use, and 
over the last 40 years our energy use per dollar of gross 
domestic product has been cut in half. The lighting standards 
that Secretary Chu announced last week will not only save 
consumers $4 billion a year, they will eliminate the need for 
14 500-megawatt power plants which would consume 50 million to 
100 million gallons of fresh water a day. DOE has several 
efficiency programs that directly cut water use including the 
Energy Star labels and appliance standards that cover washers, 
dishwashers and lighting.
    Second, our research to improve the efficiency of power 
plants also reduces water consumption as I mentioned.
    Third, the renewables including concentrated solarthermal 
power and geothermal power require water for cooling. However, 
we are looking at ways of doing dry cooling in that area. 
Fourth, our renewable power plants such as wind and solar PV do 
not require water for cooling and can sharply reduce our power 
consumption.
    And the only thing I want to point out here in these 
graphics is that the Midwest and the West are in some sense the 
breadbasket of renewables. If you look, here is a map of the 
United States, of course. Here is the wind, here is where our 
solar is, our hydroelectric in this area, and finally 
geothermal.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    So we have a tremendous possibility to exploit these new 
technologies, and we are working vigorously to do that.
    Lastly, I want to state a little bit about the growth and 
conversion of biomass energy. It can consume a great deal of 
water if we use irrigated crops and fertilizers. But if we go 
to switchgrass and miscanthus, we don't need to use any 
additional water in terms of irrigation, and I think that is 
really a focus for some of our R&D activities.
    Let me just end by finally applauding the House for passing 
the American Clean Energy and Security Act of 2009. We believe 
it will help position the United States to be a leader in the 
green economy, and we are committed to reducing greenhouse gas 
emissions and our dependence on foreign oil while investing in 
the R&D so that we can be leaders in the new energy 
technologies of the future.
    Chairman Baird and Members of the Subcommittee, I would 
like to thank you for the opportunity to provide this testimony 
on this important topic and to discuss with you the activities 
of the Department and plans for developing even further water 
efficient technologies and sustainable energy. Thank you.
    [The prepared statement of Dr. Johnson follows:]

               Prepared Statement of Kristina M. Johnson

    Thank you, Mr. Chairman and Members of the Committee. I appreciate 
this opportunity to provide testimony on the U.S. Department of 
Energy's (DOE's) programs for developing water-efficient 
environmentally-sustainable energy-related technologies and DOE 
strategies for coordinating these activities. Energy production of all 
types affects and is affected by the natural water cycle, and 
increasingly, water-efficient technologies are being developed to 
reduce these impacts.

Interactions with Others/R&D Selection

    It is, of course, important to point out that a number of other 
federal agencies also have significant water programs, in particular 
the U.S. Army Corps of Engineers, the Environmental Protection Agency, 
and a number of Department of the Interior Agencies and Bureaus, 
although they are much less focused on energy-related aspects. In 
addition, the private sector must be congratulated for the progress 
they have made in introducing cost-effective water efficiency 
approaches into their operations over the last several decades as 
competition for water among all sectors of society has increased. 
Finally, State and local governments have major roles in energy and 
water issues through their Public Utility Commissions, State lands and 
waters management authority, and their various regulatory departments. 
The Federal Government and its agencies can contribute innovative 
research and development activities to support these other sectors. 
Overall, we work closely with all of these partners in identifying 
important energy-water related issues, and in developing appropriate 
federal level strategies to address the issues. DOE supports pre-
competitive basic and applied research for water-efficient technology 
development, which enables the identification of cross-cutting 
challenges that will have broad potential applicability.

Research Coordination and Synthesis

    The Federal Government, in general, and DOE in particular, supports 
a broad range of research and development activities at universities, 
at National Laboratories, and in cooperative research agreements with 
the private sector. DOE, as the landlord of the Nation's largest 
civilian National Laboratory system, supports research and development 
activities ranging from the most basic to the most applied at various 
sites across the United States. We regularly support national workshops 
and conferences that draw our researchers together with those from 
other institutions to build understanding and research collaborations. 
Researchers within our Laboratories are not partitioned based on their 
funding sources, and we expect our scientists and managers to provide 
mutual support across the range of basic to applied challenges.
    DOE program planning, and research and development coordination and 
integration, occurs within individual DOE offices and across offices 
frequently. Under Secretary Koonin and I are committed to continuing 
progress in enabling cross-office dialogues. More broadly, water-
related R&D activities of federal agencies are discussed with the White 
House Office of Science and Technology Policy (OSTP)--National Science 
and Technology Council (NSTC), Committee on Environment and Natural 
Resources (CENR), Subcommittee on Water Availability and Quality 
(SWAQ). DOE is an active participant.
    I would now like to discuss some of DOE's current energy-water 
related activities, and how we are working on the challenges we have 
identified related to water use in energy production and end-use. In 
general, water is only one of many factors such as materials inputs, 
energy production and consumption, emissions, and others that must be 
considered in the life cycle construction, operation, and 
decommissioning of energy technologies. Consequently, water-related 
technology R&D is best done as part of the broader R&D effort to 
improve performance, lower costs, and reduce environmental impacts, 
including water, of energy supply and end-use technologies.

THERMOELECTRIC POWER

    Water, once considered a nearly inexhaustible resource, is becoming 
constrained in many areas, and water requirements for electricity 
production may compete with other demands, such as agriculture and 
sanitation. The August 2007 drought in the southeastern U.S. 
underscored this issue with several nuclear power plants in the region 
reducing their output by up to 50 percent due to low river levels. This 
situation could be exacerbated as more areas become drought-prone due 
to changing climate.
    Thermoelectric power plants (including coal, oil, natural gas, and 
nuclear, with small contributions from biopower, geothermal, and 
concentrating solar thermal power), generate about 90 percent of the 
electricity in the United States, and require large quantities of 
cooling water, a resource that is limited in parts of the Nation. A 
recent DOE analysis estimated that in 2005 the U.S. thermoelectric 
power generation sector withdrew 147 billion gallons per day (Bgal/d) 
from surface water bodies such as rivers or lakes of which about 3.7 
Bgal/d of freshwater were consumed, for cooling systems.
    An important distinction should be made between water withdrawal 
and consumption. Withdrawal is defined as the removal of water from any 
natural source or reservoir such as a lake, river, stream, or aquifer 
for human use. The withdrawn water that is not consumed typically is 
returned to the original water body, making it usable again farther 
downstream, but the withdrawal can still place stress on the water 
bodies and ecosystems affected. Consumption is that portion of the 
water withdrawn which is no longer available for use because it has 
evaporated, transpired, been incorporated into products and crops, 
consumed by people or livestock, or otherwise removed from freshwater 
resources.
    In thermoelectric power plants, heat is used to create steam, which 
then turns a steam turbine. A cooling system is then used to condense 
the steam as part of the thermodynamic cycle. There are three general 
types of cooling systems used for thermoelectric power plants: once-
through, wet re-circulating, and dry. Older power plants equipped with 
once-through cooling water systems have relatively high water 
withdrawals, typically 20,000-60,000 gal/MWh, but low water 
consumption, typically 200-400 gal/MWh, since most of the water is 
returned to the original water body at a roughly 20<SUP>+</SUP>F higher 
temperature. Clean Water Act regulations effectively prohibit the use 
of once-through cooling systems for new power plants due to 
environmental concerns. New thermoelectric power plants therefore must 
be equipped with either wet re-circulating cooling systems or dry 
cooling systems. Wet re-circulating systems have relatively low water 
withdrawal, typically 300-700 Gal/MWh, but the water withdrawn is 
entirely consumed, giving them higher water consumption than once-
through systems. Dry cooling systems rely on heat exchange with ambient 
air, rather than water, and therefore both water withdrawal and 
consumption are minimal. However, dry cooling is not as effective as 
wet cooling and can result in significant efficiency and capacity 
penalties during hot weather conditions. In the United States, 
approximately 43 percent of generating capacity uses once-through 
cooling systems, 56 percent of the plants use wet re-circulating 
cooling systems, and one percent use dry cooling systems. DOE reported 
to Congress in October 2008 the potential impact of converting the 
once-through cooling systems to recirculating systems, ``Electricity 
Reliability Impacts of a Mandatory Cooling Tower Rule for Existing 
Steam Generation Units.''
    Although commercially available cooling technology options can 
reduce water consumption, they result in some added cost and 
complexity, and reduce the power available from the plant. DOE is 
developing new technologies that will reduce the cost and complexity of 
these systems.
    On a generating unit basis (gal/MWh produced), nuclear plants 
consume approximately 40 percent more water and natural gas combined 
cycle plants consume approximately 60 percent less than contemporary 
subcritical pulverized coal (PC) technology. Advanced technology coal 
plants can significantly reduce the water consumptive footprint, with 
integrated gasification combined cycle technologies (IGCC) reducing 
water consumption by about 40 percent compared to PC technology.
    DOE, within Office of Fossil Energy programs implemented at the 
National Energy Technology Laboratory (NETL), is developing advanced 
water management technologies applicable to fossil and other power 
plants in three specific areas: non-traditional sources of process and 
cooling water to demonstrate the effectiveness of utilizing lower-
quality water for power plant cooling and processing needs; innovative 
water reuse and recovery research explores advanced technologies for 
the recovery and reuse of water from power plants; and advanced cooling 
technology research examines advanced wet, dry, and hybrid cooling 
technologies.

Concentrating Solar Thermal Power (CSP)
    Because of the huge solar resource across the Southwest U.S., and 
because of the ability of Concentrating Solar Thermal Power (CSP) to 
use thermal storage so that they can provide dispatchable power at any 
time, utilities are showing increasing interest in CSP systems. In the 
U.S. Southwest, however, water availability is an issue. During the 
public meetings held in 2008 as part of the Solar Energy Development 
Programmatic Environmental Impact Statement conducted with BLM, much of 
the discussion by environmental groups centered on water usage.
    DOE analyzed water use by CSP plants in a report to Congress last 
fall: ``Concentrating Solar Power Commercial Application Study: 
Reducing Water Consumption of Concentrating Solar Power Electricity 
Generation'' under P.L. 106-554, Section 515.\1\
---------------------------------------------------------------------------
    \1\ http://www1.eere.energy.gov/solar/pdfs/
csp<INF>-</INF>water<INF>-</INF>study.pdf
---------------------------------------------------------------------------
    The study found that a dry-cooled parabolic trough plant in the 
Mojave Desert--about the worst possible thermal conditions--would 
``provide five percent less electric energy on an annual basis and 
increase the cost of the produced electricity by seven to nine 
percent'' compared to wet cooling. However, air cooling at a site in 
New Mexico--with cooler daytime temperatures than the Mojave--would 
raise electricity costs just two percent. The impact of air cooling on 
a power tower is even less, with annual generation dropping by only 1.3 
percent while that of a trough plant would drop 4.6 percent. Analysis 
of a hybrid wet/dry cooling system for a parabolic trough plant found 
that water consumption could be reduced 50 percent with only a one 
percent drop in annual electricity output, or 85 percent reduction in 
water consumption with only three percent reduction in output. Further 
R&D on hybrid wet/dry cooling systems could have significant benefits 
across a wide range of thermal power plants.
    CRS also recently analyzed water requirements for CSP.\2\ CRS found 
that ``resource data gaps on current and projected non-CSP water 
consumption and on availability of impaired water supplies add 
uncertainty to analyses of the potential significance of CSP freshwater 
use and alternatives to its use. For these reasons, any estimate of how 
much water may be consumed by CSP at the regional, State, or county 
level is highly uncertain.''
---------------------------------------------------------------------------
    \2\ CRS Report, Water Issues of Concentrating Solar Power (CSP) 
Electricity in the U.S. Southwest; R40631.

Geothermal power plants
    Geothermal power plants also use water, air, or hybrid cooling 
systems in their power conversion cycle and similar considerations 
apply to them as for fossil and CSP plants above. In addition, 
geothermal power plants--hydrothermal and Enhanced (or Engineered) 
Geothermal Systems (EGS)--circulate water through the hot underground 
reservoir to extract heat for the power conversion cycle. Successful 
operation requires that most of the injected water is returned to the 
surface. In the next five years, emerging technology is expected to 
reduce total water loss in an EGS reservoir to no more than two percent 
of the total water injected, and as the technology matures the goal is 
to reduce that water loss to less than one percent over the life of the 
reservoir, or about 30 years. Current research activities to achieve 
this and other program goals include the development of high 
temperature sensors and tools for use in the reservoir; the ability to 
isolate and control the flow of fluids through the reservoir; the 
development of detailed computational models of the reservoir and the 
thermal, chemical, and fluid interactions within it; and the ability to 
image fluid flow through the reservoir.

Wind and Solar PhotoVoltaic (PV) Power
    Wind and solar PV electricity generation are not based on 
thermoelectric power cycles and only require minimal water for 
occasional cleaning. The DOE Report, ``20% Wind Energy by 2030: 
Increasing Wind Energy's Contribution to U.S. Electricity Supply'' 
estimated that in a 20 percent wind by 2030 scenario, water consumption 
for power generation could be reduced by 17 percent in 2030 as compared 
to the business-as-usual scenario, saving roughly 1.2 Bgal/d.

Hydroelectric Power
    Water Power R&D within the Office of Energy Efficiency and 
Renewable Energy investigates technologies that use the motion of water 
to generate electricity, including both conventional hydropower and 
emerging marine and hydrokinetic technologies such as wave, current, 
and tidal power. While hydropower reservoirs do have evaporative losses 
that are shared across the many uses of the reservoir (flood control, 
recreation, power generation, etc.), water power technologies do not 
themselves directly consume water. The deployment of these technologies 
thus contributes to the overall reduction of water consumption in the 
Nation's energy generation portfolio. Consequently, the program does 
not conduct research specifically to reduce water consumption in the 
production of energy.
    For both marine hydrokinetic and conventional hydropower, the 
program focuses its efforts in two key areas: technology development 
and market acceleration. The goal of technology development is to 
characterize different technology types, reduce costs and obstacles 
associated with design, development, deployment, and testing, and to 
improve device reliability and performance. Market acceleration 
research aims to more accurately quantify the potential magnitude, 
costs and benefits of water power generation, and reduce the time, 
expense and negative impacts associated with project siting.
    Under the American Reinvestment and Recovery Act of 2009, funds 
have been made available under a cost sharing program for efficiency 
and/or capacity upgrades at existing hydropower infrastructures, 
including both large (>50 MW) and small (<50 MW) conventional 
hydroelectric facilities. The goal is to generate more electricity with 
less water, while concurrently increasing both the environmental 
benefits and grid services of hydropower systems.
    Several studies are currently underway to more precisely quantify 
the energy generation potential of all U.S. water resources. These 
include conventional hydroelectric supplies as well as new resources 
derived from ocean, current, tidal or ocean thermal power. Accurately 
identifying realistically extractable amounts of energy will allow both 
public policy and industry decision-makers to better prioritize future 
efforts.
    Finally, the Water Power Program is facilitating the initial 
development and testing of new marine hydrokinetic technologies through 
a number of competitive public-private partnerships. Products from this 
process will include new engineering designs for wave energy 
converters, development and testing of improved tidal power turbines, 
and the validation of the latest low-cost, high reliability ocean 
thermal energy components.

Carbon Capture and Sequestration
    Using today's technologies, capturing carbon dioxide 
(CO<INF>2</INF>) from existing coal and natural gas plants, or from new 
fossil-fuel fired plants, would increase water consumption because 
capturing CO<INF>2</INF> requires the addition of several processes 
that are both energy and water intensive. Processes that use solvents 
to capture CO<INF>2</INF> require energy to regenerate the solvent so 
it can be used again. Once the CO<INF>2</INF> is captured, it must be 
compressed for sequestration or beneficial use, with compressors 
usually having significant operating power and cooling requirements. 
These processes are common for both conventional fossil-based 
combustion processes and advanced technologies such as IGCC. The added 
internal energy requirements for these processes can effectively 
subtract 10 to 30 percent of the energy from the net plant power output 
and also correspondingly increase water consumption.
    Efforts to capture 90 percent of carbon emissions by using current 
near-commercial carbon capture and storage (CCS) technologies on 
pulverized coal (PC) plants could more than double the amount of water 
consumed per unit of electricity generated. Studies of this consumptive 
footprint have indicated that IGCC plants with CCS have a comparative 
advantage, with water consumption significantly lower than that of PC 
plants with CCS.
    A key objective of DOE R&D activities is to mitigate the potential 
impact of CO<INF>2</INF> capture on water resources. This is being 
addressed in a key component of its Office of Fossil Energy R&D 
Program--the development of advanced CO<INF>2</INF> capture 
technologies that require less cooling.
    In addition to CO<INF>2</INF> capture, CO<INF>2</INF> sequestration 
can also impact water resources. The focus of regulatory activities 
governing geologic storage of CO<INF>2</INF> has been on developing 
rules that will protect underground sources of drinking water. EPA 
published a proposed rule for geologic storage on July 29, 2008, which 
uses Safe Drinking Water Act (SDWA) authorities and revises the 
Underground Injection Control (UIC) Program. The rule is designed to 
provide consistency across the United States and transparency that will 
build public confidence. As part of the rule-making process, EPA drew 
heavily on experience gained from DOE's Carbon Sequestration Program, 
particularly the Regional Partnership Program, which is helping to 
develop a CCS infrastructure throughout the United States and parts of 
Canada.
    Sequestration Program research and field testing are developing 
best practices for characterizing geologic formations and predicting 
and tracking the movement of stored CO<INF>2</INF>. This will help to 
minimize the possibility of CO<INF>2</INF> contacting underground 
sources of drinking water. For example, significant effort has been 
made on ways to assess the potential for leakage through existing 
wellbores, which is important if CO<INF>2</INF> is injected into older 
oil fields. Another focus area is the management of existing water in 
large, deep saline formations, which are vast and represent the most 
abundant CO<INF>2</INF> storage opportunities in the U.S. DOE is 
currently leading a National Risk Assessment Program that will develop 
the strong science and technology base necessary to ensure the 
potential risks at each site are comprehensively identified and 
understood, thereby providing large scale projects with the tools and 
knowledge necessary for safe and secure storage.

FUELS

Natural Gas and Oil
    There are a variety of water-related issues associated with natural 
gas and oil production, including produced water and its effects on the 
environment, treatment of process waters, and the availability of water 
in arid lands. During the extraction of crude oil, water is often 
injected into the reservoir to increase the pressure and stimulate the 
production of oil. This water, along with mobile water that naturally 
occurs in hydrocarbon-bearing rock layers is pumped to the surface 
along with the oil and/or natural gas, and is collectively called 
produced water. Pumping and managing additional liquid from the 
formation requires considerable energy, and constitutes a significant 
cost for operators of oil and natural gas wells. Produced water is the 
largest by-product or waste stream generated by the oil and natural gas 
industry. An estimated 20 billion barrels (840 billion gallons) of 
produced water are generated in the U.S. each year. The characteristics 
of produced water vary considerably ranging from near potable waters to 
those containing residual hydrocarbons, salts, metals, and dissolved 
solids, depending on geographic location, geology and whether natural 
gas or oil is being produced. As the availability of usable water 
supplies is becoming a more significant issue in communities across the 
country, the protection of existing water supplies is even more 
critical and produced water from oil and natural gas production is 
being viewed as a potential water resource for agriculture and other 
beneficial uses, rather than a waste.
    Since the early 1990's, DOE's Office of Fossil Energy has conducted 
over 100 science and technology research projects involving industry, 
universities, National Laboratories, states, and other federal agencies 
on various aspects of water management related to oil and natural gas 
development. Twenty-three states currently utilize similar risk-based 
data management systems (RBDMS) protocols for regulating oil and 
natural gas production and underground injection well activities which 
were developed with DOE funding under the auspices of the Ground Water 
Protection Council.
    U.S. natural gas supply is expected to come increasingly from 
domestic gas-filled shales. New shale gas developments in existing 
plays, such as the Barnett and emerging plays such as the Marcellus, 
Haynesville, Fayetteville, and Woodford, are expected to expand 
significantly in the coming years. These new resources and the required 
technologies to exploit them are introducing new challenges as well as 
new opportunities for water re-use and recycling. As oil and natural 
gas development expands to new areas of the country, water issues are 
also expanding to include concerns about community water supplies and 
infrastructure needed to support the influx of workers.
    Mature oil wells, which accounted for 16 percent of the Nation's 
oil production in 2007, yield large quantities of produced water. DOE-
funded research in collaboration with the National Stripper Well 
Consortium, regional universities and others has included efforts to 
develop and demonstrate cost-effective, environmentally sound water 
management technologies and methods that can maintain well productivity 
and protect water quality.
    Alaska is unique with respect to the environmental and water 
issues. The cold winter climate, environmental sensitivity of the 
tundra and permafrost covered areas, the reliance on ice roads and ice 
pads for oil and natural gas exploration activity in remote regions, 
the unique characteristics of Alaska's fisheries and ecosystems, and 
the importance of subsistence hunting and fishing to many of Alaska's 
citizens make it imperative that development of fossil energy 
resources, including oil and natural gas, whether for delivery to the 
Lower-48 States, or for local use, be environmentally responsible. 
Office of Fossil Energy oil and natural gas and Arctic research 
projects are managed by NETL.

Hydrogen
    Water is a key feedstock for the production of hydrogen. Water is 
used as both a chemical feedstock and as a cooling medium for most of 
the proposed hydrogen production pathways (i.e., central and 
distributed, steam methane reforming and electrolysis). Since water is 
an essential input for the production of hydrogen, a preliminary 
analysis was conducted using the well-to-wheels methodology to 
determine the water use for each renewable hydrogen production pathway 
compared to conventional fuel pathways. The preliminary analysis of 
water consumption found the water consumption to be equal to or less 
than other conventional fuels, up to 70 percent less than conventional 
fuels on a gasoline equivalent basis. At current water prices, it is 
unlikely that water will have a major economic impact on the adoption 
of hydrogen as a fuel nor would the adoption of hydrogen significantly 
increase stress on the U.S. water supply overall, recognizing that 
there may be the need for permitting agencies in some areas to manage 
the phase-in of hydrogen with the phase-out of production of other 
fuels to avoid overlaps.
    A more detailed analysis is required to examine impacts of hydrogen 
on regional water resources, the water cost on hydrogen product cost, 
regional permitting constraints and options to reduce water consumption 
in the hydrogen production pathways. The DOE Fuel Cell Technologies 
Program commissioned Lawrence Livermore National Laboratory to conduct 
this in-depth analysis and recommend technology improvements to reduce 
the water use. The analysis will be completed by the end of FY 2009. 
The results will be incorporated in the cost analysis of each of the 
hydrogen production pathways.
    Moreover, stationary fuel cells for combined heat and power 
applications show promise of having no net water consumption at the 
application site and can actually produce clean water which can 
potentially be used there. These attributes of fuel cells and the 
technology requirements for water production will be characterized in 
FY 2010.

Biomass Energy
    The Office of Energy Efficiency and Renewable Energy's Biomass 
Program has funded several National Laboratories to assess water 
consumption and water quality impacts of biofuels production. Argonne 
National Laboratory is working on an assessment of the net water 
consumption of two major steps of the biofuels life cycle: feedstock 
production and fuel production. The work addresses irrigation and 
process water, and has evaluated five fuel pathways, including ethanol 
from corn, ethanol from cellulosic feedstocks, gasoline from 
conventional crude oil, gasoline from Saudi Arabian crude oil, and 
gasoline from Canadian oil sands. The analysis to date revealed that 
the amount of irrigation water used to grow biofuel feedstocks varies 
significantly from one region to another and that water consumption for 
biofuel production varies with processing technology.
    Argonne has also been funded to examine water quality issues 
related to the production and conversion of biomass feedstocks. This 
task addresses the impact of biomass feedstock and fuel production on 
water quality at a regional or watershed level. Water quality impacts 
addressed include nutrient from agricultural run-offs, water pollutant 
outputs from point sources that are generated by major industries, and 
discharge from fuel production plants.
    Finally, Argonne is examining the opportunities and benefits of 
alternative production strategies to leverage the use of impaired water 
and marginal land at the State to regional level to supply biomass 
feedstock for biofuel production. To date, assessments have shown that 
there are sizable opportunities to grow biomass on marginal and 
underutilized land in the study area of Nebraska, and that this 
production could be doubled with no further land commitment if impaired 
water and the nutrients that it entrains could be efficiently 
recovered. Future work will expand the study area, as well as the scope 
to include economic data and the optimization tools to determine 
tradeoffs between productivity with marginal resources and farmer 
profits.
    Oak Ridge National Laboratory (ORNL) has begun an analysis of 
current and future water quality issues in several major hydrologic 
regions of the U.S., identifying those sites with water bodies listed 
by the U.S. Environmental Protection Agency as having water quality 
problems related to agricultural practices. They are examining if such 
water quality problems can be improved by replacing crops requiring 
intensive management with more sustainable crops that could be used for 
bioenergy production. A series of economic and environmental models 
will be linked to forecast water quality implications of landscape 
changes associated with the production of new more environmentally 
sustainable bioenergy crops such as switchgrass at a national scale. 
These studies will analyze both economic and environmental impacts 
including nutrient and sediment loading and changes in biotic habitat.
    In addition, ORNL is pursuing opportunities to gather field data to 
quantify effects of large-scale bioenergy plantings in several 
locations. Field studies are being designed to consider how bioenergy 
feedstock production can affect water quality as well as how bioenergy 
crop production can affect habitat for a variety of organisms.

ENERGY EFFICIENCY IMPROVEMENTS

    Energy efficiency improvements in buildings, industry, and 
transportation avoid the consumption of water in producing power and 
fuels. Thus, all of these programs have an impact on water and offer a 
very significant opportunity for reducing water consumption in the 
production of electricity and fuels. Most of the R&D activities in 
these programs, however, are not directly targeted towards water usage. 
The Buildings Technology Program (BTP), however, will be conducting a 
thorough review of the R&D opportunities for increased energy 
efficiency in appliances, including appliances that use water.
    For Buildings, in particular, the Energy Policy and Conservation 
Act (EPCA) states that procedures for testing and measuring water use 
of faucets and showerheads, and water closets and urinals, shall be 
American Society of Mechanical Engineers (ASME)/American National 
Standards Institute (ANSI) Standards, but that if ASME/ANSI revises 
these requirements, the Secretary shall adopt such revisions unless the 
Secretary determines that the revised test procedures are not 
satisfactory for determining water use or they are unduly burdensome to 
conduct. It further provides that if the requirements of the ASME/ANSI 
Standard are amended to improve the efficiency of water use, the 
Secretary shall publish a final rule establishing an amended uniform 
national standard unless adoption of such a standard is not (i) 
technologically feasible and economically justified, (ii) consistent 
with the maintenance of public health and safety; or (iii) consistent 
with the purposes of this Act.
    BTP currently conducts activities in both the deployment and rule-
making (appliance standards) areas that directly impact water usage. 
These are listed below.

Energy Star

    ENERGY STAR is a joint program of the U.S. Environmental Protection 
Agency and the U.S. Department of Energy, helping us all save money and 
protect the environment through energy efficient products and 
practices. The ENERGY STAR label appears on products that have met 
strict requirements for energy, and in some cases direct water savings. 
DOE is responsible for the labeling programs for commercial and 
residential ENERGY STAR clothes washers and residential dishwashers.

Residential Clothes Washers
    The average American family washes almost 400 loads of laundry each 
year. Families can cut their related energy costs by more than a third 
and water costs by more than half by purchasing an ENERGY STAR clothes 
washer. Effective July 1, 2009, DOE raised the minimum Modified Energy 
Factor (MEF) to 1.8 and lowered the maximum water factor to 7.5. In 
comparison, before January 1, 2007, the minimum MEF was 1.42 and there 
was no Water Factor requirement. MEF is an equation that takes into 
account the amount of dryer energy used to remove the remaining 
moisture content in washed items. Water Factor is the water use of the 
washer measured in gallons per cycle per cubic foot of clothes washer 
tub volume. This change in criteria level applies to both residential 
and residential-style commercial clothes washers. The change in 
criteria level is the fourth since 2001. The effective date gives 
manufacturers 17 months to prepare for the criteria change. The annual 
program savings for ENERGY STAR qualified clothes washers are projected 
at 538 million kWh/year and 7.9 billion gallons of water. DOE will 
further raise the minimum MEF to 2.0 and lower the maximum water factor 
to 6.0 effective January 1, 2011. To qualify for ENERGY STAR, a clothes 
washer must have a minimum of 1.72 and also a maximum Water Factor of 
8.0.

Residential Dishwashers
    ENERGY STAR qualified dishwashers use at least 41 percent less 
energy than the federal minimum standard for energy consumption and 
much less water than conventional models. Because they use less hot 
water compared to new conventional models, an ENERGY STAR qualified 
dishwasher saves about $90 over its lifetime. Effective August 11, 
2009, the requirements will be a maximum energy use of 324 kWh/year and 
5.8 gallons per cycle for standard models and a maximum energy use of 
234 kWh/year and 4.0 gallons per cycle for compact models. The 
inclusion of water consumption is a new addition to the ENERGY STAR 
dishwasher criteria. The criteria will be changed again on July 1, 2011 
with standard ENERGY STAR dishwashers using 307 kWh/year and 5.0 
gallons of water per cycle and compact models using 222 kWh/year and 
3.5 gallons per cycle. Currently, standard ENERGY STAR models must have 
an energy factor of 0.65 or more (equivalent to roughly 339 kWh/year) 
and compacts must have an energy factor of 0.88 or greater (equivalent 
to roughly 252 kWh/year). These performance measures are not strictly 
comparable to the new levels as the efficiency metrics have changed and 
now also include, for example, stand-by losses.

Appliance Standards

    The Appliance Standards program develops test procedures and 
minimum efficiency standards for residential appliances and commercial 
equipment. Each standard must ``be designed to achieve the maximum 
improvement in energy efficiency, or, in the case of showerheads, 
faucets, water closets, or urinals, water efficiency, which the 
Secretary determines is technologically feasible and economically 
justified.'' The direct link between energy and water means that all 
energy conservation standards result in water conservation, and vice 
versa. In addition, certain covered products are specifically regulated 
for their water consumption. These products are discussed below.

Residential Clothes Washers
    The Energy Independence and Security Act of 2007 (EISA 2007) also 
prescribed water conservation standards for residential clothes 
washers. Previously, federal standards regulated only the energy use of 
residential clothes washers. Effective January 1, 2011, top-loading and 
front-loading standard-size residential clothes washers must have a 
water factor of not more than 9.5. DOE is currently undertaking a rule-
making to amend the standards for residential clothes washers 
manufactured after January 1, 2015. The final rule is scheduled for 
completion no later than December 31, 2011.

Commercial Clothes Washers
    New federal water and energy conservation standards for commercial 
clothes washers went into effect on January 1, 2007. DOE is currently 
conducting a rule-making to consider revising these standards. The 
final rule is scheduled for completion by January 1, 2010 and will 
apply to products manufactured three years after the date of 
publication of the final rule.

Residential Dishwashers
    Section 311(a) of EISA 2007 amended section 325(g) of EPCA to adopt 
energy conservation standards and water conservation standards for 
residential dishwashers manufactured on or after January 1, 2010. 
Standard size dishwashers may not exceed 6.5 gallons per cycle and 
compact size dishwashers may not exceed 4.5 gallons per cycle. Again, 
the water efficiency requirements are a new addition. DOE is scheduled 
to complete a rule-making amending the standards for dishwashers that 
would take effect in 2015.

DOE Facility Efficiency Options
    Executive Order 13423 (2007) called for a reduction in water 
consumption of each agency's water consumption through life cycle cost 
effective measures by two percent annually through the end of FY 2015. 
The DOE Federal Energy Management Program provides information on water 
conservation in federal facilities at http://www1.eere.energy.gov/femp/
water/. All National Laboratories are supporting DOE's efforts in this 
area by tracking water consumption and actively implementing water 
conservation measures as well as energy conservation measures.

Conclusion

    Again, Chairman Baird and Members of the Subcommittee, I want to 
thank you for this opportunity to provide testimony on this important 
topic of energy and water linkage, and to discuss with you the 
Department's activities and plans for developing water-efficient, 
environmentally-sustainable energy technologies. I would be pleased to 
take your questions now.

                   Biography for Kristina M. Johnson

    Kristina M. Johnson is currently the Under Secretary of Energy in 
the U.S. Department of Energy. She received her B.S., M.S. (with 
distinction) and Ph.D. in electrical engineering from Stanford 
University. After a NATO post-doctoral fellowship at Trinity College, 
Dublin, Ireland, she joined the University of Colorado-Boulder's 
faculty in 1985 as an Assistant Professor and was promoted to full 
Professor in 1994. From 1994 to 1999, Dr. Johnson directed the NSF/ERC 
for Optoelectronics Computing Systems Center at the University of 
Colorado and Colorado State University, and then served as Dean of the 
Pratt School of Engineering at Duke University from 1999 to 2007. From 
September of 2007 to April 2009, Dr. Johnson served as Provost and 
Senior Vice President for Academic Affairs at The Johns Hopkins 
University.
    Dr. Johnson was named an NSF Presidential Young Investigator in 
1985 and awarded a Fulbright fellowship in 1991. Her awards include the 
Dennis Gabor Prize for creativity and innovation in modern optics 
(1993); State of Colorado and North Carolina Technology Transfer Awards 
(1997, 2001); induction into the Women in Technology International Hall 
of Fame (2003); the Society of Women Engineers Lifetime Achievement 
Award (2004); and, most recently, the John Fritz Medal, widely 
considered the highest award in the engineering profession (May 2008). 
Previous recipients of the Fritz Medal include Alexander Graham Bell, 
Thomas Edison and Orville Wright.
    A fellow of the Optical Society of America, IEEE, SPIE and a 
Fulbright Scholar, Dr. Johnson has 142 refereed papers and proceedings 
and holds 45 U.S. patents (129 U.S. and international patents) and 
patents pending. These inventions include pioneering work on liquid 
crystal on silicon (LCOS) micro-displays and their integration into 
demonstration and commercial systems such as heads-up automotive 
displays (HUD); pattern recognition systems for cancer pre-screening, 
object tracking and document processing; HDTV and 3D projection 
displays; displays brought to the eye and 3D holographic memories. 
Other inventions include tunable optical filters, spectrometers and 
color filters, microscope auto-focus systems, rechargeable pacemakers 
and new methods for efficiently licensing intellectual property.

    Chairman Baird. Thank you, Dr. Johnson. Your grandfather 
would be proud----
    Dr. Johnson. Thank you.
    Chairman Baird.--as are we grateful for your presence.
    Ms. Mittal.

STATEMENT OF MS. ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Mittal. Mr. Chairman and Members of the Subcommittee, I 
am pleased to be here today to participate in your hearing on 
R&D needs for the energy-water nexus.
    At the request of this committee, GAO currently has work 
under way related to three aspects of the energy-water nexus. 
These include reviews of the water used to produce biofuels, 
water used to produce electricity, and water used to extract 
oil from shale. We expect to release reports on each of these 
studies later this year or early next year.
    For each study, you asked us to pay particular attention to 
the technologies that could help reduce the amount of water 
needed to produce energy from these sources. My testimony today 
will discuss key themes that we have identified to date from 
our biofuels and electricity work because these reviews are the 
furthest along. Our work on oil shale is in its very 
preliminary stages, and we will have more information to share 
with the Committee later this year.
    Our ongoing work on biofuels and electricity provide two 
excellent case studies that highlight the types of R&D and data 
collection activities that the Federal Government can focus on 
to help address energy-water nexus issues. Our biofuels work 
specifically has identified a variety of data and technology 
areas where more research is needed, and our electricity work 
has identified key areas of data collection that DOE can 
improve.
    I will briefly describe our preliminary observations in 
each of these areas.
    With regards to biofuels, our work has identified a number 
of research needs at all stages of the biofuels life cycle, 
from cultivation to conversion to distribution and storage. In 
the area of cultivation, some examples of the research needs 
that we have identified include the following: The need for 
information on impacts of feedstock production on aquifer water 
supplies, the need to develop additional drought-tolerant crop 
varieties, the need for research on how the production of 
cellulosics and algae can be scaled up in a sustainable way and 
the need for research to determine the maximum amount of 
agricultural residues that can be removed while maintaining 
soil and water quality.
    In the area of conversion of feedstocks into biofuels, we 
have found that while much is known about the water needed to 
convert corn into ethanol, more research is needed on how to 
reduce the water needs of biorefineries that use cellulosics, 
and there is need for research on technologies that can 
effectively extract oil from algae.
    In the area of storage and distribution of biofuels, we 
have identified still other research needs. Because ethanol is 
highly corrosive and poses a risk of damage to pipelines and 
storage tanks, it could therefore lead to groundwater 
contamination. To overcome potential compatibility issues, 
experts have told us that further research is needed on 
conversion technologies that can produce renewable fuels that 
are compatible with the existing infrastructure.
    Shifting to our work on electricity, we have found that the 
use of advanced cooling technologies such as air cooling or 
hybrid cooling can reduce the amount of fresh water needed by 
thermoelectric power plants, but DOE's current data collection 
efforts may not fully capture the extent to which the industry 
is moving in this direction. Moreover, higher costs associated 
with using these technologies may cause power plant developers 
to reject these options, and research that can help reduce the 
cost of these technologies can help make their use more 
widespread. Similarly, the use of alternative water sources, 
such as effluent from sewage treatment plants, brackish water 
or sea water can also reduce fresh water use by power plants. 
But DOE's data collection efforts also are not systematically 
capturing this trend in the industry.
    Water experts and federal agencies we spoke to told us that 
not having data on the extent to which advanced cooling 
technologies or alternative water sources are being used by the 
industry limits the ability of industry analysts to assess the 
extent to which these technologies have reduced fresh water 
use. Lack of such information also impacts the ability of 
federal decision-makers to target research efforts most 
appropriately. According to DOE officials, the agency is 
currently redesigning the process it uses to collect data on 
advanced cooling technologies and will implement this new 
process in 2011.
    In conclusion, Mr. Chairman, both of our ongoing reviews 
have identified a number of R&D efforts that are being 
supported by DOE and other federal agencies. However, our work 
has also identified a number of R&D areas that still need to 
receive attention in the future. Investments in these areas 
will help resolve many of the uncertainties that currently 
exist relating to the energy-water nexus.
    That concludes my prepared statement. I would be happy to 
respond to questions.
    [The prepared statement of Ms. Mittal follows:]

                  Prepared Statement of Anu K. Mittal

Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to participate in your hearing on 
technology research and development for the energy-water linkage often 
referred to as the energy-water nexus. As you know, water and energy 
are inexorably linked, mutually dependent, and each affects the other's 
availability. Energy is needed to pump, treat, and transport water, and 
large quantities of water are needed to support the development of 
energy. Production of biofuels that may help reduce our dependency on 
oil, and the cooling of power plants that today provide the electricity 
we use, represent two examples where water supply is tied directly to 
our ability to provide energy.
    However, both water and energy are facing serious supply 
constraints. Freshwater is increasingly in demand to meet the needs of 
municipalities, farmers, industries, and the environment. Likewise, 
rising demand for energy--fueled by both population growth and 
expanding uses of energy--may soon outstrip our ability to supply it 
with existing resources. Looking just at electricity, according to the 
Energy Information Administration's (EIA) most recent Annual Energy 
Outlook, 259 gigawatts of new generating capacity--the equivalent of 
259 large coal-fired power plants--will be needed between 2007 and 
2030. As the country's energy needs grow along with its population, 
additional pressure will likely be put on our water resources.
    Given the importance of water and energy, both the Federal 
Government and State governments play key roles in monitoring, 
regulating, collecting information, and supporting research on energy 
and water issues. In general, State governments play a central role in 
overseeing water availability and use by evaluating water supplies and 
permitting water uses. However, while much of the authority governing 
water supply and distribution lies with State and local governments, 
the Federal Government also has a role in helping the country meet its 
energy needs without damaging or depleting our supplies of freshwater. 
For example, federal agencies, including the Department of Energy 
(DOE), have provided data and analysis about water use for energy 
production, as well as funded related research and development. These 
activities are important to further our understanding of how to more 
efficiently use such critical resources.
    At the request of this committee, GAO currently has work under way 
related to three aspects of the energy-water nexus--water use in the 
production of biofuels, water use at thermoelectric power plants, and 
water use in the extraction of oil from shale. We expect to release 
reports on biofuels and thermoelectric power plants later this year. 
For each study, the Committee asked us to identify technologies that 
could help reduce the amount of water needed to produce energy from 
these sources. My testimony today discusses key themes we have 
identified during our work to date on the two ongoing energy-water 
nexus jobs that are furthest along, specifically (1) biofuels and water 
use and (2) thermoelectric power plants and water use. Our work on oil 
shale is in its very preliminary stages and we will have further 
information to share with the Committee on this aspect of the energy-
water nexus later this year.
    To identify the effects of biofuel cultivation, conversion, and 
storage on water supply and water quality, we are conducting a review 
of relevant scientific articles and key Federal and State government 
reports. In addition, in consultation with the National Academy of 
Sciences, we identified and spoke with a number of experts who have 
published research analyzing the water supply requirements of one or 
more biofuel feedstocks and the implications of increased biofuel 
cultivation and conversion on water quality. Furthermore, we are 
interviewing officials from DOE, the Environmental Protection Agency 
(EPA), and the Department of Agriculture (USDA) about impacts on water 
supply and water quality during the cultivation of biofuel feedstocks 
and the conversion and storage of the finished biofuels. To identity 
the relationship of thermoelectric plants and water, we are reviewing 
selected reports, interviewing federal officials and experts, and 
examining relevant energy and water data. In particular, we are 
examining reports on alternative cooling technologies and water 
supplies and the impact they can have on water use at power plants. We 
are also interviewing officials from DOE, EPA, and the Department of 
Interior's U.S. Geological Survey, as well as State water regulators 
and water and energy experts at national energy laboratories and 
universities. In addition, we are interviewing representatives from 
electric power producers, sellers of electric power plant equipment, 
cooling technology companies, and engineering firms that design new 
power plants. Finally, we are examining power plant data on water 
source, use, consumption, and cooling technology types collected by EIA 
and data collected and reported by the U.S. Geological Survey. Our work 
is being conducted in accordance with generally accepted government 
accounting standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.

Background

    Biofuels are an alternative to petroleum-based transportation fuels 
and derived from renewable resources. Currently, most biofuels are 
derived from corn and soybeans. Ethanol is the most commonly produced 
biofuel in the United States, and about 98 percent of it is made from 
corn that is grown primarily in the Midwest. Corn is converted to 
ethanol at biorefineries through a fermentation process and requires 
water inputs and outputs at various stages of the production process--
from growth of the feedstock to conversion into ethanol. While ethanol 
is primarily produced from corn grains, next generation biofuels, such 
as cellulosic ethanol and algae-based fuels, are being promoted for 
various reasons including their potential to boost the Nation's energy 
independence and lessen environmental impacts, including on water. 
Cellulosic feedstocks include annual or perennial energy crops such as 
switchgrass, forage sorghum, and miscanthus; agricultural residues such 
as corn stover (the cobs, stalks, leaves, and husks of corn plants); 
and forest residues such as forest thinnings or chips from lumber 
mills. Some small biorefineries have begun to process cellulosic 
feedstocks on a pilot-scale basis; however, no commercial-scale 
facilities are currently operating in the United States.\1\ In light of 
the federal renewable fuel standard's requirements for cellulosic 
ethanol starting in 2010,\2\ DOE is providing $272 million to support 
the cost of constructing four small biorefineries that will process 
cellulosic feedstocks. In addition, in recent years, researchers have 
begun to explore the use of algae as a biofuel feedstock. Algae produce 
oil that can be extracted and refined into biodiesel and has a 
potential yield per acre that is estimated to be 10 to 20 times higher 
than the next closest quality feedstock. Algae can be cultivated in 
open ponds or in closed systems using large raceways of plastic bags 
containing water and algae.
---------------------------------------------------------------------------
    \1\ For example, Range Fuels has operated a pilot biorefinery in 
Denver, Colo., since 2008 that has successfully converted pine and 
hardwoods into cellulosic ethanol. The company plans to optimize the 
technologies from this pilot plant at its cellulosic biorefinery, 
expected to begin commercial-scale production in 2010. This 
biorefinery, located in Soperton, Ga., is targeted to produce 
approximately 100 million gallons of ethanol and mixed alcohols from 
wood byproducts when it is at full scale.
    \2\ The Energy Independence and Security Act of 2007, Pub. L. No. 
110-140 (2007).
---------------------------------------------------------------------------
    Thermoelectric power plants use a fuel source--for example, coal, 
natural gas, nuclear material such as uranium, or the sun--to boil 
water to produce steam. The steam turns a turbine connected to a 
generator that produces electricity. Traditionally, water has been 
withdrawn from a river or other water source to cool the steam back 
into liquid so it may be reused to produce additional electricity. Most 
of the water used by a traditional thermoelectric power plant is for 
this cooling process, but water may also be needed for other purposes 
in the plant such as for pollution control equipment. In 2000, 
thermoelectric power plants accounted for 39 percent of total U.S. 
freshwater withdrawals.\3\ EIA annually reports data on the water 
withdrawals, consumption and discharges of power plants of a certain 
size, as well as some information on water source and cooling 
technology type. These data are used by federal agencies and other 
researchers in estimating the overall power plant water use and 
determining how this use has and will continue to change.
---------------------------------------------------------------------------
    \3\ Water consumed by thermoelectric power plants accounts for a 
smaller percentage.

Information Is Limited on the Water Supply and Water Quality Impacts of 
                    the Next Generation of Biofuels

    Our work to date indicates that while the water supply and water 
quality effects of producing corn-based ethanol are fairly well 
understood, less is known about the effects of the next generation of 
feedstocks and fuels. The cultivation of corn for ethanol production 
can require substantial quantities of water--from seven to 321 gallons 
per gallon of ethanol produced--depending on where it is grown and how 
much irrigation water is used.\4\ Furthermore, corn is a relatively 
resource-intensive crop, requiring higher rates of fertilizer and 
pesticide applications than many other crops; some experts believe that 
additional corn production for biofuels conversion will lead to an 
increase in fertilizer and sediment runoff and in the number of 
impaired streams and other water bodies. Some researchers and 
conservation officials have told us that the impact of corn-based 
ethanol on water supply and water quality could be mitigated through 
research into developing additional drought-tolerant and more nutrient-
efficient crop varieties thereby decreasing the amount of water needed 
for irrigation and the amount of fertilizer that needs to be applied. 
Furthermore, experts also mentioned the need for additional data on 
current aquifer water supplies and research on the potential of biofuel 
cultivation to strain these water sources.
---------------------------------------------------------------------------
    \4\ Wu, M., M. Mintz, M. Wang, and S. Arora. Consumptive Water Use 
in the Production of Ethanol and Petroleum Gasoline. Center for 
Transportation Research, Energy Systems Division, Argonne National 
Laboratory, January 2009.
---------------------------------------------------------------------------
    In contrast to corn-based ethanol, our work to date indicates that 
much less is known about the effects that large-scale cultivation of 
cellulosic feedstocks will have on water supplies and water quality. 
Since potential cellulosic feedstocks have not been grown commercially 
to date, there is little information on the cumulative water, nutrient, 
and pesticide needs of these crops, and it is not yet known what 
agricultural practices will actually be used to cultivate these 
feedstocks on a commercial scale. For example, while some experts 
assume that perennial feedstocks will be rainfed, other experts have 
pointed out that to achieve maximum yields for cellulosic crops, 
farmers may need to irrigate these crops. Furthermore, because water 
supplies vary regionally, additional research is needed to better 
understand geographical influences on feedstock production. For 
example, the additional withdrawals in states relying heavily on 
irrigation for agriculture, such as Nebraska, may place new demands on 
the Ogallala Aquifer, an already strained resource from which eight 
states draw water. In addition, if agricultural residues--such as corn 
stover--are to be used, this could negatively affect soil quality, 
increase the need for fertilizer, and lead to increased sediment runoff 
to waterways. Considerable uncertainty exists regarding the maximum 
amount of residue that can be removed for biofuels production while 
maintaining soil and water quality. USDA, DOE, and some academic 
researchers are attempting to develop new projections on how much 
residue can be removed without compromising soil quality, but 
sufficient data are not yet available to inform their efforts, and it 
may take several years to accumulate such data and disseminate it to 
farmers for implementation. Experts we spoke with generally agree that 
more research on how to produce cellulosic feedstocks in a sustainable 
way is needed.
    Our work also indicates that even less is known about newer 
biofuels feedstocks such as algae. Algae have the added advantage of 
being able to use lower-quality water for cultivation, according to 
experts. However, the impact on water supply and water quality will 
ultimately depend on which cultivation methods are determined to be the 
most viable. Therefore, research is needed on how best to cultivate 
this feedstock in order to maximize its potential as a biofuel 
feedstock and limit its potential impacts on water resources. Other 
areas we have identified that relate to water and algae cultivation in 
need of additional research include:

        <bullet>  Oil extraction. Additional research is needed on how 
        to extract the oil from the algal cell in such a way as to 
        preserve the water contained in the cell along with the oil, 
        thereby allowing some of that water to be recycled back into 
        the cultivation process.

        <bullet>  Contaminants. Information is needed on how to manage 
        the contaminants that are found in the algal cultivation water 
        and how any resulting wastewater should be handled.

    Uncertainty also exists regarding the water supply impacts of 
converting feedstocks into biofuels. Biorefineries require water for 
processing the fuel and need to draw from existing water resources. 
Water consumed in the corn-ethanol conversion process has declined over 
time with improved equipment and energy efficient design, according to 
a 2009 Argonne National Laboratory study, and is currently estimated at 
three gallons of water required for each gallon of ethanol produced. 
However, the primary source of freshwater for most existing corn 
ethanol plants is from local groundwater aquifers and some of these 
aquifers are not readily replenished. For the conversion of cellulosic 
feedstocks, the amount of water consumed is less defined and will 
depend on the process and on technological advancements that improve 
the efficiency with which water is used. Current estimates range from 
1.9 to 5.9 gallons of water, depending on the technology used. Some 
experts we spoke with said that greater research is needed on how to 
manage the full water needs of biorefineries and reduce these needs 
further. Similar to current and next generation feedstock cultivation, 
additional research is also needed to better understand the impact of 
biorefinery withdrawals on aquifers and to consider potential resource 
strains when siting these facilities.
    Our work to date also indicates that additional research is needed 
on the storage and distribution of biofuels. Ethanol is highly 
corrosive and poses a risk of damage to pipelines, and underground and 
above-ground storage tanks, which could in turn lead to releases to the 
environment that may contaminate groundwater, among other issues. These 
leaks can be the result of biofuel blends being stored in incompatible 
tank systems--those that have not been certified to handle fuel blends 
containing more than 10 percent ethanol. While EPA currently has some 
research under way, additional study is needed into the compatibility 
of higher fuel blends, such as those containing 15 percent ethanol, 
with the existing fueling infrastructure. To overcome potential 
compatibility issues, future research is needed on other conversion 
technologies that can be used to produce renewable and advanced fuels 
that are capable of being used in the existing infrastructure.

Key Efforts to Reduce Use of Freshwater at Power Plants May Not Be 
                    Fully Captured in Existing Federal Data

    In our work to date, we have found (1) the use of advanced cooling 
technologies can reduce freshwater use at thermoelectric power plants, 
but federal data may not fully capture this industry change; (2) the 
use of alternative water sources can also reduce freshwater use, but 
federal data may not systematically capture this change; and (3) 
federal research under way is focused on examining efforts to reduce 
the use of freshwater in thermoelectric power plants.
    Advanced cooling technologies offer the promise to reduce 
freshwater use by thermoelectric power plants. Unlike traditional 
cooling technologies that use water to cool the steam in power plants, 
advanced cooling technologies carry out all or part of the cooling 
process using air. According to power plant developers, they consider 
using these water-conserving technologies in new plants, particularly 
in areas with limited available water supplies. While these 
technologies can significantly reduce the amount of water used in a 
plant--and in some cases eliminate the use of water for cooling--their 
use entails a number of challenges. For example, plants using advanced 
cooling technologies may cost more to build and operate; require more 
land; and, because these technologies can consume a significant amount 
of energy themselves, witness lower net electricity output--especially 
in hot, dry conditions. However, eliminating or minimizing freshwater 
use by incorporating an advanced cooling technology provides a number 
of potential benefits to plant developers, including minimizing the 
costs associated with acquiring, transporting, and treating water, as 
well as eliminating impacts on the environment associated with water 
withdrawals, consumption, and discharge. In addition, the use of these 
advanced cooling technologies may provide the flexibility to build 
power plants in locations not near a source of water.
    For these reasons, a number of power plant developers in the United 
States and across the world have adopted advanced cooling technologies, 
but according to EIA officials, the agency's forms have not been 
designed to collect information on the use of advanced cooling 
technologies. Moreover, the instruments the agency uses to collect 
these data were developed many years ago and have not been recently 
updated. EIA officials have told us that while some plants may choose 
to report this information, they may not do so consistently or in such 
a way that allows comprehensive identification of the universe of 
plants using advanced cooling technologies. Water experts and federal 
agencies we spoke to during the course of our work identified value in 
the annual EIA data on cooling technologies, but some explained that 
not having data on advanced cooling technologies limits public 
understanding of their prevalence and analysis of the extent to which 
their adoption results in a significant reduction in freshwater use. 
According to EIA officials, the agency is currently redesigning the 
instrument it uses to collect these data and expects to begin using the 
revised instrument in 2011. In addition, during the course of our work 
we noted that in 2002, EIA discontinued reporting water-related data 
for nuclear power plants, including water use and cooling technology. 
As we develop our final report, we will be looking at various 
suggestions that we can make to DOE to improve its data collection 
efforts.
    Our work to date also indicates that the use of alternative water 
sources can substantially reduce or eliminate the need to use 
freshwater for power plant cooling at an individual plant. Alternative 
water sources that may be usable for power plant cooling include 
treated effluent from sewage treatment plants; groundwater that is 
unsuitable for drinking or irrigation because it is high in salts or 
other impurities; industrial water, such as water generated when 
extracting minerals like oil, gas, and coal; and others. Use of these 
alternative water sources can ease the development process where 
freshwater sources are in short supply and lower the costs associated 
with obtaining and using freshwater when freshwater is expensive. 
Because of these advantages, alternative water sources play an 
increasingly important role in reducing power plant reliance on 
freshwater, but can pose challenges, including requiring special 
treatment to avoid adverse effects on cooling equipment, requiring 
additional efforts to comply with relevant regulations, and limiting 
the potential locations of power plants to those nearby an alternative 
water source. These challenges are similar to those faced by power 
plants that use freshwater, but they may be exacerbated by the lower 
quality of alternative water sources.
    Power plant developers we spoke with told us they routinely 
consider use of alternative water sources when developing their power 
plant proposals. Moreover, a 2007 report by Argonne National Laboratory 
indicates that the use of treated municipal wastewater at power plants 
has become more common, with 38 percent of power plants after 2000 
using reclaimed water. EIA collects annual data from power plants on 
their water use and water source. However, according to EIA officials, 
while some plants report using an alternative water source, many may 
not be reporting such information since EIA's data collection form was 
not designed to collect data on these freshwater alternatives. One 
expert we spoke with told us that not having data on the use of 
alternative water sources at power plants limits public understanding 
of these trends and the extent to which these approaches are effective 
in reducing freshwater use. As we develop our final report, we plan to 
also develop suggestions for DOE that can improve this data gathering 
process.
    Power plant developers may choose to reduce their use of freshwater 
for a number of reasons, such as when freshwater is unavailable or 
costly to obtain, to comply with regulatory requirements, or to address 
public concern. However, a developer's decision to deploy an advanced 
cooling technology or an alternative water source depends on an 
evaluation of the tradeoffs between the water savings and other 
benefits these alternatives offer and the cost involved. For example, 
where water is unavailable or prohibitively expensive, power plant 
developers may determine that despite the challenges, advanced cooling 
technologies or alternative water sources offer the best option for 
getting a potentially profitable plant built in a specific area.
    While private developers make key decisions on what types of power 
plants to build and where to build them, and how to cool them based on 
their views of the costs and benefits of various alternatives, 
government research and development can be a tool to further the use of 
alternative cooling technologies and alternative water supplies. In 
this regard, the Department of Energy's National Energy Technology 
Laboratory (NETL) plays a central role in DOE's research and 
development effort. In recent years, NETL has funded research and 
development projects through its Innovations for Existing Plants 
program aimed at minimizing the challenges of deploying advanced 
cooling technologies and using alternative water sources at existing 
plants, among other things. In 2009, the lab spent about $9 million to 
support research and development of projects that, among other things, 
could improve the performance of advanced cooling technologies, recover 
water used to reduce emissions of air pollutants at coal plants for 
reuse, and facilitate the use of alternative water sources such as 
polluted water for cooling. Such research endeavors, if successful, 
could alter the trade-off analysis power plant developers conduct in 
favor of nontraditional alternatives to cooling.

Concluding Observations

    Ensuring sufficient supplies of energy and water will be essential 
to meeting the demands of the 21st century. This task will be 
particularly difficult, given the interdependency between energy 
production and water supply and water quality and the strains that both 
these resources currently face. DOE, together with other federal 
agencies, has a key role to play in providing key information, helping 
to identify ways to improve the productivity of both energy and water, 
partnering with industry to develop technologies that can lower costs, 
and analyzing what progress has been made along the way. While we 
recognize that DOE currently has a number of ongoing research efforts 
to develop information and technologies that will address various 
aspects of the energy-water nexus, our work indicates that there are a 
number of areas to focus future research and development efforts. 
Investments in these areas will provide information to help ensure that 
we are balancing energy independence and security with effective 
management of our freshwater resources.
    Mr. Chairman that concludes my prepared statement, I would be happy 
to respond to any questions that you or other Members of the 
Subcommittee might have.

GAO Staff Acknowledgments

    Key staff contributors to this testimony were Jon Ludwigson, 
Assistant Director; Elizabeth Erdmann, Assistant Director; Scott 
Clayton; Paige Gilbreath; Miriam Hill; Randy Jones; Micah McMillan; 
Nicole Rishel; Swati Thomas; Lisa Vojta; and Rebecca Wilson.

                      Biography for Anu K. Mittal

    Ms. Anu K. Mittal, is a Director with the Natural Resources and 
Environment team of the U.S. Government Accountability Office (GAO), in 
Washington, D.C. She is responsible for leading GAO's work in the areas 
of Water Resources and Defense Environmental Cleanup.
    Ms. Mittal has been with GAO since 1989, during which time she has 
led a variety of reviews of federal programs relating to water 
resources, oceans and fisheries, environmental restoration programs, 
energy, housing, food safety, science and technology, and agriculture 
issues. She has also served in other organizational capacities and 
worked on special projects for the Comptroller General.
    Ms. Mittal received a Masters in Business Administration from the 
University of Massachusetts, and has completed the senior executive 
fellow program at the John F. Kennedy School of Government at Harvard 
University. She has received numerous GAO honors for sustained 
leadership and exceptional contributions to the agency's mission.

    Chairman Baird. Thank you, Ms. Mittal. Dr. Hannegan.

STATEMENT OF DR. BRYAN J. HANNEGAN, VICE PRESIDENT, ENVIRONMENT 
     AND GENERATION, THE ELECTRIC POWER RESEARCH INSTITUTE

    Dr. Hannegan. Thank you, Mr. Chairman, Ranking Member 
Inglis, and Members of the Subcommittee. It is a great pleasure 
to be with you here today to join this distinguished panel in 
discussing the research needs for the energy-water nexus.
    I want to focus first on a couple points about EPRI, the 
Electric Power Research Institute founded in 1973 as an 
independent, non-profit center for collaborative research 
regarding energy and environment issues in the public interest. 
A key element of EPRI's mission is informing the public policy 
process, and we are very thrilled to be here today to have this 
opportunity.
    One of the key points I would like to make in my testimony 
this morning is that water is a finite resource with multiple 
uses, and when you look at the totality of both water demand 
and water supply going forward, it is increasingly obvious in 
the electric sector not only are we looking at a carbon-
constrained world, we are also looking at a water-constrained 
world. When you think about the competing uses from population 
growth, from agriculture, from climate variability and change 
affecting both the timing and the magnitude of water 
availability, think about the demand for water increasing over 
time as a result of economic growth and increasing 
electrification, the shift to low-carbon technologies, some of 
which are more water intensive as the Under Secretary alluded 
to in her comments, particularly around CO<INF>2</INF> capture 
and storage, work that we have been doing identifies the CCS 
technologies at present will roughly double the water demand in 
a conventional coal or natural gas-fired unit. So there are 
tremendous opportunities there to improve water availability 
for CCS.
    As my colleague, Ms. Mittal from GAO, just mentioned a 
moment ago, advanced cooling technologies do exist. They offer 
a lot of promise, but at present their costs, their performance 
are not where we would want them to be for widespread 
commercial application. And so as you look to future research 
needs in this area, not only the whole notion of water resource 
management and understanding the supply of water but also 
moderating and mitigating the demand of water from the electric 
power sector through advanced cooling technologies is going to 
be a key effort going forward.
    To expound upon these key points which are described in 
detail in my testimony, I want to just show you a couple of 
graphics.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is from an outdated USGS assessment of water use. On 
the left-hand side, you see water withdrawals, thermoelectric 
power and particularly, cooling is a significant withdrawer of 
water. But one of the key elements I want to stress is that the 
electric power industry needs access to water but doesn't 
necessarily consume it. If you look at the right-hand side, as 
a fraction of consumption, electric power utilities only 
consume three percent. It is really a question for us of 
access. It is also a question of returning that water back to 
the environment in a state that it can be used. And so it is 
mitigating the impact of taking that water in, where fish 
protection and other aquatic organisms are concerned, and also 
bringing that water back with minimal or no effluence that 
cause environmental degradation as well, and I think that is a 
key point to make.
    When you look at the water used by power plant type, 
nuclear, fossil, but even solar-thermal and biofuel are big 
consumers of water from a cooling standpoint. And even simple 
gas combustion turbines use a lot of water for fuel injection. 
And as we change this generation mix, we are going to be 
changing the water demands.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To drive that home, one of the ways in which we are looking 
at the transition to a low-carbon economy in the electric 
sector is to bring on, as shown here in this chart, increasing 
amounts of renewables, increasing amounts of nuclear energy, 
increasing amounts of CO<INF>2</INF> capture and storage for 
both existing and new units. This shift is going to change the 
way we use water in this important segment of society.
    So we have existing technologies that are on the board 
right now, once through cooling and wet cooling towers, roughly 
about half and half with existing plants in the application 
there, a lot of advanced technologies such as dry or hybrid 
cooling approaches, recycling the water within the plant, using 
gray waters and increasing the thermal efficiency of plant are 
all going to be important. The challenge with dry cooling as 
the Under Secretary mentioned is that these things are emerging 
technologies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



    There is a lot of work to be done here, and at present, if 
you look at the left-hand side of this chart, it is at a 
significant increased cost, both from capital as well as 
operations and reducing the power output, even things like 
noise and the size of the units that you need for a typical 
500-megawatt plant are things that are of concern.
    We talked about the impact here in the United States. It is 
also worth reflecting on the heat wave in France in 2003. It 
was an impact not just on the availability of water for 
cooling, but in fact the generation capacity and the resulting 
changes in the market that led to more spot market purchases of 
electricity, higher prices ultimately to consumers, and large-
scale load shedding and other mechanisms to maintain the 
reliability of the system. So it is really at the heart of 
maintaining a reliable and low-cost electrical system.
    So to sum up, we have worked with the Department of Energy, 
the NETL, and Sandia National Labs through the energy-water 
nexus program to outline about a $40 million, 10-year research 
program that would be focused around these five areas, both 
understanding the financial and operating impacts of cooling 
technologies. As Ms. Mittal suggested, there is a big gap there 
that can be addressed there in the near-term, working on the 
technologies, particularly dry and hybrid cooling approaches, 
using degraded waters. One of the issues with carbon capture 
and storage is the potential production of saline waters from 
the saline aquifers that we are injecting CO<INF>2</INF> into. 
If there was a way to treat that saline water to use that for 
thermoelectric plant cooling, you are solving multiple problems 
with one approach. And finally, getting our arms around how 
climate interacts with water and how water interacts with 
climate, both in the production of renewable energy, but just 
in the availability of the resource, that is improving decision 
support, developing better climate modeling tools that allow us 
to get a handle around the hydroelectric cycle. There is a lot 
of work that can be done here, and we are well under way 
working very collaboratively with the Department on pursuing 
next steps.
    Thank you, and that concludes my testimony.
    [The prepared statement of Dr. Hannegan follows:]

                Prepared Statement of Bryan J. Hannegan

    Thank you, Chairman Baird, Ranking Member Inglis, and Members of 
the Subcommittee. I am Bryan Hannegan, Vice President--Environment and 
Generation, at the Electric Power Research Institute (EPRI). EPRI 
conducts research and development on technology, operations and the 
environment for the global electric power industry. As an independent, 
non-profit Institute, EPRI brings together its members, scientists and 
engineers, along with experts from academia, industry and other centers 
of research to:

        <bullet>  collaborate in solving challenges in electricity 
        generation, delivery and use;

        <bullet>  provide technological, policy and economic analyses 
        to drive long-range research and development planning; and

        <bullet>  support multi-discipline research in emerging 
        technologies and issues.

    EPRI's members represent more than 90 percent of the electricity 
generated in the United States, and international participation extends 
to 40 countries. EPRI has major offices and laboratories in Palo Alto, 
California; Charlotte, North Carolina; Knoxville, Tennessee, and Lenox, 
Massachusetts.
    EPRI appreciates the opportunity to provide testimony to the 
Subcommittee on the subject of ``Technology Research and Development 
Efforts Related to the Energy and Water Linkage.'' In my testimony 
today, I would like to highlight the following key points:

        <bullet>  While thermoelectric power plant cooling accounts for 
        approximately 40 percent of freshwater withdrawals in the U.S., 
        it accounts for only three percent of total consumption.

        <bullet>  Water use for power generation has declined steadily 
        per unit of power produced; however more significant growth in 
        power demand has led to a total increase in water use by the 
        electric power sector over the past five decades.

        <bullet>  The largest users of water are nuclear and coal-based 
        power plants; however renewable energy resources such as 
        concentrated solar and biomass can also use significant water 
        resources on a life cycle basis.

        <bullet>  Advanced cooling technologies, such as dry cooling 
        and use of degraded waters, can reduce water use in power 
        plants but come at a significant increased cost using existing 
        technologies available today.

        <bullet>  EPRI, working with DOE and others, has identified a 
        $40 million, 10-year research program focused on reducing the 
        cost of existing cooling options, and developing new technology 
        options and decision support tools to reduce the demand for 
        fresh water resources in the coming decades.

        <bullet>  These research efforts are urgently needed to 
        mitigate the expected shortfall in water needs for 
        thermoelectric cooling as a result of future electricity demand 
        growth, competing demand for water resources by other economic 
        sectors, and new water demands from low-carbon generation 
        sources such as nuclear, biomass, and CO<INF>2</INF> capture 
        and storage.

I. Fresh Water Use at Thermoelectric Power Plants

    The major use of water for thermoelectric plants is condensing of 
steam. These plants convert heat energy (as steam) to electric energy. 
The source of the heat energy may be nuclear, coal, gas, oil, biofuel, 
solar or geothermal. The heat source boils water and the resulting 
steam is driven through a turbine which turns a generator. The steam 
exits the turbine into the condenser where it must be condensed and 
cooled in order to be pumped backed to the boiler and converted to 
steam to complete the overall cycle.
    According to the most recent available survey of water withdrawals 
by the USGS (Figure 1), thermoelectric power plant cooling accounts for 
approximately 40 percent of freshwater withdrawals in the U.S. 
Agricultural irrigation accounts for approximately the same amount. 
Most of the water withdrawn by thermoelectric generation is discharged 
back into the receiving water body. On the other hand, thermoelectric 
power plants account for approximately three percent of total 
freshwater consumption in the U.S. (Figure 2). The USGS stopped 
reporting water consumption values after the 1995 survey; water use 
numbers were reported for 2000 but have not changed substantially. In 
arid regions of the U.S., power companies employ significant use of 
cooling towers, non-traditional water sources, water recycling within 
the power plant and use of evaporation ponds. In these instances the 
total amount of freshwater withdrawn by power plants is likely to be 
significantly less that in other regions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The use of recirculating systems (e.g., cooling towers) and 
freshwater conservation measures, such as substitution of sewage 
treatment effluent for freshwater in the arid parts of the country, has 
been driven by limited water availability. In other parts of the 
country, the main driving factor for recirculating systems has been 
water intake and discharge regulations (e.g., fish protection and 
thermal discharge requirements).
    These measures have enabled the electric power industry to reduce 
its water withdrawals per unit of electric power generated by a factor 
of three (Table 1). However, the electric industry increased its output 
of electric power by a factor of 15 over the same period. The net 
result was a five-fold increase in water withdrawals by the electric 
power industry since 1950, most of which occurred before 1980. Total 
water withdrawal by the industry has actually declined since 1980.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Power plant water use is often measured as the amount of water 
withdrawal per unit of electric energy generated. The lower this 
number, the more efficient is the plant's use of water. Power plant 
water use varies with type of generation (Figure 3). The efficiencies 
shown in the figure are representative of the type of generation. In 
reality, there is considerable variability depending not only on the 
type of generation but also on numerous other factors. For example, 
with respect to coal plants with wet cooling towers, a survey conducted 
by EPRI showed that cooling water withdrawal ranged from 500 to 700 
gallons/megawatt-hour.
    Note that a coal plant uses water not only for cooling but also for 
flue gas scrubbing and ash handling. A combined cycle gas plant, which 
uses the exhaust of a gas turbine to drive a single steam cycle, is 
significantly more water efficient than a single steam cycle plant. A 
renewable energy plant may or may not have significant cooling 
requirements. While a wind energy or solar photovoltaic plant uses 
little water, a solar thermal or biofuel plant is conceptually no 
different than a fossil or nuclear steam plant and needs significant 
amounts of water for cooling. With respect to biofuel, there can also 
be significant water demand associated with fuel production. Although 
Figure 3 does not show water demands by geothermal electricity 
production, its water needs are conceptually no different than those of 
nuclear and coal plants. In fact, geothermal electricity production 
requires more cooling water since its thermal efficiency (ratio of 
electricity output to thermal energy input) is relatively low compared 
to other electric generation technologies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Under severe drought conditions or heat waves, the generating 
capacity of operating power plants is more likely to be limited by an 
inability to meet thermal discharge permits than by the quantity of 
available water. When thermal discharge limitations occur it is 
possible for the appropriate regulatory agency to grant the plant a 
waiver to continue operating. However, when there is inadequate water 
to operate the plant at full capacity, the only options are either to 
reduce power plant generation or completely shut down the plant. Over 
the last several years, there have been isolated incidents in the U.S. 
of plants having to reduce power or shut down because of limited 
available water. In France, in 2003, there was a major multi-week heat 
wave that resulted in a regional impact consisting of a 7-15 percent 
loss of nuclear generation capacity for five weeks, a loss of 20 
percent of hydro generation capacity, large scale load shedding, 
purchase of large amounts of electricity on the wholesale power market, 
and sharp increases in electricity prices on the spot market.

II. Existing Cooling Technologies in Use Today

    Historically, condensing and cooling of the steam has been provided 
by once-through cooling systems (Figure 5) in which cool water from a 
river, lake, ocean or a pond is pumped to the condenser where it 
condenses the steam from the turbine. After exiting the condenser, the 
heated cooling water is discharged back into the receiving water body.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    To minimize the impacts on fish and address thermal discharges, new 
electric power generation plants typically use recirculating cooling 
water systems (Figure 6). In a recirculating cooling water system, the 
cooling water is cooled either in a cooling tower or cooling pond and 
then recycled back to the condenser.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    If a recirculating cooling water system was completely closed, the 
salt concentration in the water would build up to a point where the 
condenser tubes would collect saline scale (affecting performance) and 
corrosion would be excessive. For this reason, it is necessary for a 
percentage of the recycling water be released during each cycle. This 
water is called blowdown. To makeup for the blowdown and cooling water 
that is lost to evaporation and drift of the cooling tower exhaust, the 
recycling system must continuously withdraw water. This water is called 
makeup.
    Figure 7 shows a schematic of typical water use in a 500MW thermal 
plant with a recirculating cooling system (wet cooling tower). The 
cooling tower is the largest water consumer in the plant, and in this 
example, requires 9537 gal/min (gpm) of fresh water when running at 
full load. This makeup is required to replace the water lost to 
evaporation and drift (about two-thirds of the total) and blowdown 
(about one-third).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There are four major strategies for reducing fresh water use in 
thermoelectric generation, all of which are being applied to some 
extent today:

        1.  Dry/hybrid cooling substitutes air for water as the cooling 
        medium.

        2.  Non-traditional water sources substitute degraded waters 
        such as sewage treatment effluent, agricultural runoff, 
        produced water associated with the extraction of oil and gas, 
        mine water, saline groundwater, and stormwater for freshwater.

        3.  Water recycle strategies will treat waste streams within 
        the plant and reuse the water; e.g., remove salts from cooling 
        tower blowdown and recycle as makeup.

        4.  Increased thermal conversion efficiency through use of the 
        waste heat of one plant process to drive another. For example, 
        combined heat and power applications use the waste heat from 
        the electric generation process to satisfy space heating needs, 
        reducing the overall fuel and water use required while 
        providing the same level of energy services.

    The advantages and limitations of each of these technologies depend 
on local conditions and fuel costs; hence there is no universal optimal 
approach. The objective of EPRI's advanced cooling research program is 
to optimize the various technologies in terms of technological and 
economic performance with the goal of minimizing both overall costs and 
environmental impact.

III.  Future Impacts on Water Use in the Electric Power Industry

    Water availability is expected to become a major issue for the 
electric utility industry over the next decade and beyond. Siting of 
new plants is already constrained by access to cooling water, 
especially fresh water. Electric power is frequently assigned the 
lowest priority for water allocation after residential, commercial 
industrial and agricultural uses. Given limited supplies of fresh water 
and increasing demands, it is critical to examine options for reducing 
this anticipated demand as electricity is needed to drive the U.S. 
economy. This demand must be viewed in light of anticipated changes in 
climate and new technologies expected to enter the marketplace.

CO<INF>2</INF> Policy and New Generation--With the expectation that the 
United States will soon have some form of regulation for carbon dioxide 
and other greenhouse gases, utilities are already anticipating and 
planning for the changes that will need to occur. Many of these changes 
will impact water requirements, and new generation will need to be 
responsive to public and regulatory pressures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    EPRI's PRISM analysis (Figure 8) examines the potential for 
CO<INF>2</INF> reductions under varying assumptions of conservation, 
energy efficiency and new technologies entering the marketplace over 
the next 20 years. These technologies, if implemented, would have water 
resource impacts which are briefly described below.

More Nuclear, More Biomass, and More Solar--Figure 8 shows EPRI's 
assumed increases in power generation from nuclear, biomass and solar 
generating stations from the PRISM analysis. Each of these technologies 
has potential water impacts. Current nuclear power plant designs use 
slightly more cooling water than their fossil-fueled equivalents. This 
is due to the lower peak steam temperature and pressure that nuclear 
units can achieve and the subsequent impact on efficiency. It is also 
much more difficult and expensive to use some of the water conserving 
technologies (such as dry cooling) because of the containment and 
safety issues inherent to nuclear plants.
    Dedicated biomass generation is growing as an electric power source 
and has no net carbon emissions. These plants have similar water 
requirements to other fossil-fueled plants while in operation. However, 
from a life cycle perspective, water is likely required to cultivate 
the fuel and should be taken into consideration when examining future 
water use and consumption. Solar power can be generated by photovoltaic 
systems, which have little water requirement aside from cleaning the 
panels, or solar thermal. Solar thermal plants operate much the same as 
traditional thermal power plants, where solar radiation is used in 
place of fuel to boil a working fluid, which is then used to turn a 
turbine and condensed and cooled with a cooling system. Water 
requirements for solar thermal plants are similar to other thermal 
plants.

Carbon Capture and Storage--The application of carbon capture and 
storage (CCS) for fossil power plants will entail additional water 
requirements and could ultimately lead to doubling of the water 
requirement for such plants. Figure 9 shows data from a DOE-NETL study 
that compares water use among different technologies, including coal 
with CCS. EPRI studies show very similar results: an ultra-
supercritical pulverized coal (USC) plant with carbon capture would 
incur a 38 percent increase in water consumption compared to one 
without CCS. When the decrease in net power is factored into the 
calculation (due to the parasitic load of the carbon capture 
equipment), a facility with a CCS system will use more than twice as 
much water compared to a facility without CCS.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Shift of Other Carbon Emitters to Electricity--EPRI's PRISM study and 
other analyses of greenhouse gas reductions predict that other sectors 
of the economy will switch to electric technologies in response to 
CO<INF>2</INF> emission constraints as the reductions in the electric 
sector would be more cost-effective in many cases. Examples include:

        <bullet>  Industrial--change to electric motors, eliminate 
        package boilers, etc.

        <bullet>  Agricultural--electric motors for water pumps and 
        other stationary equipment

        <bullet>  Residential--switching to electric water heating, 
        cooking, etc.

        <bullet>  Transportation--increased use of electric and plug-in 
        hybrid vehicles

    Some of this new electric load will be met with renewable energy 
sources that may not require water, but some portion of this increased 
demand for electricity will require access to water including those 
with advanced water conserving technologies.

Change of Existing Once-Through Cooling to Cooling Towers--As current 
once through cooled plants are retired, new electric generating 
facilities will likely employ cooling towers (primarily for fish 
protection). While the use of cooling towers reduces water withdrawal 
by 95 percent or more, it also doubles water consumption (through 
evaporative losses). Unless power companies have cost-effective options 
to reduce water use, there will be an increasing demand for fresh water 
for cooling. Many new plants are already being challenged on water use 
grounds.

Potential Increase in Climate Change Impacts and Drought--A recent 
study performed by the University of California-Santa Barbara Bren 
School of Environmental Science for the California Energy Commission 
predicts that climate change would potentially reduce the snow pack in 
the Sierra Nevada Mountains and the runoff from snow melt would be 
shorter and stronger. While it is often difficult to use climate model 
precipitation data and predict localized impacts, changes in the global 
climate will have impacts on water resource distribution and 
availability, and precipitation patterns. These changes could require 
additional storage capacity, additional treatment to address water 
quality degradation, and lower water volumes with higher variability. 
All of these potential changes would have dramatic effects on operation 
of thermal power plants.

New Regulations--There are several pending regulations that will govern 
how water is used in current and future thermal generation power 
plants. Each of these regulations will provide additional limits that 
must be met, and could have a significant impact on water withdrawals 
and water consumption.

        <bullet>  Pursuant to Section 316(b) of the Clean Water Act, 
        EPA is developing new regulations to address fish entrainment 
        and impingement losses at Cooling Water Intake Structures 
        (CWIS) for once-through cooled plants. New plants must already 
        meet fish protection equivalent to wet cooling towers. EPA is 
        still drafting regulations for retrofitting CWIS for existing 
        once through cooled plants. These requirements, while still 
        under development, could potentially require retrofit of 
        cooling towers on many once through cooled power plants.

        <bullet>  EPA is considering development of new Effluent 
        Guidelines for the utility industry. These new regulations 
        could potentially require significant change in how water is 
        managed and treated within power plants including the potential 
        to reduce overall water discharges.

        <bullet>  The California State Water Resources Board is going 
        one step further and considering regulations that would require 
        all ocean-cooled power plants in the state to retrofit cooling 
        towers.

IV.  Opportunities to Reduce Water Needs in the Electric Sector

    EPRI conducts and plans research to allow the power industry to 
address risks associated with growing limitations on water 
availability. The objectives are two fold: (1) to reduce energy and 
costs associated with increasing water use efficiency while reducing 
overall water use and (2) to develop integrated risk analysis tools 
that can be used for planning water use among various stakeholders. The 
former consists of studies to improve existing water conserving 
technologies, demonstration of emerging technologies, and development 
of new technologies. Research plans also call for fundamental strategic 
studies of heat transfer, fluid flow and desalination to make major 
technological breakthroughs with respect to air cooling and water 
treatment. The second objective is to create and test integrated risk 
analysis tools for community and regional water resource planning and 
management.
    Another important facet of the EPRI program is collaboration with 
government agencies and other research organizations. EPRI has been 
working closely with the Energy-Water Nexus (EWN), a group of national 
energy laboratories, to further the understanding of the many facets of 
the overall energy-water sustainability issue. EPRI belongs to the EWN 
Executive Advisory Committee and has contributed to the Report to 
Congress and Research Roadmap that EWN has produced for USDOE. EPRI has 
also provided assistance to GAO as they review the issue of energy-
water sustainability. EPRI is an active member of the Federal Advisory 
Committee on Water Information (ACWI), a FACA committee chaired by 
USDOI. EPRI co-chairs, with U.S. Forest Service, the Energy-Water 
Sustainability Subcommittee of ACWI. Other organizations that EPRI has 
collaborated with on the issue include: American Society of Mechanical 
Engineering, Water Environment Research Foundation, WateReuse Research 
Foundation, California Energy Commission, and Water Research 
Foundation. A listing of government funding that EPRI has received is 
included in Appendix A.
    There are many opportunities for reducing fresh water use in the 
electric sector and the following sections pinpoints some of the 
additional research needs. Many of these needs have been outlined in a 
recent DOE Roadmap report which was completed with input from EPRI and 
others.

Degraded Water Sources--EPRI has extensively studied the use of 
degraded water sources, including many joint studies with DOE and the 
CA Energy Commission. These studies have evaluated degraded water 
sources from the standpoint of quantity, quality, variability, 
treatment options and cost, transportation options and cost, and 
wastewater disposal issues. Many power plants have been operating for 
years on degraded water sources, particularly treated sewerage 
effluent. This degraded water source has been the most attractive 
source because of its year round availability, proximity to power 
plants, inexpensive price, relatively low cost treatment and minimal 
impacts to power plant operation. Even this water source is being 
protected in some areas of the country for use in irrigation and 
groundwater recharge, limiting its use for power plant cooling.
    Additional degraded water sources that are being considered 
include:

        <bullet>  Brackish water from coastal areas

        <bullet>  High salinity groundwater

        <bullet>  Mine water and produced water from oil and gas wells

        <bullet>  Agricultural runoff

        <bullet>  Stormwater

    Each of these sources will cost more than traditional surface or 
groundwater sources, with the highest costs usually a result of 
treating the water and transporting it to the power plant. Additional 
costs can come from materials of construction, chemicals to prevent 
scaling, fouling and corrosion, storage or backup water system costs, 
and wastewater treatment and disposal.
    Degraded water sources typically contain suspended or dissolved 
solids. Suspended solids can usually be filtered or removed in 
clarifiers, but dissolved solids are more difficult to remove. These 
dissolved solids can lead to scaling and corrosion of power plant 
equipment, and the suspended and dissolved solids can lead to fouling. 
In addition, nutrients and minerals in degraded water sources can lead 
to biological growth that creates additional fouling issues. All of 
these treatments have to be incorporated to prevent operational and 
maintenance issues within the power plant and add to the cost of using 
degraded water sources.
    EPRI has identified many research needs for improving the use of 
degraded water sources. Some of the research that EPRI has identified 
includes:

        <bullet>  Better and cheaper treatment options

        <bullet>  Wastewater disposal options (salts)

        <bullet>  Coatings to prevent scaling, fouling and corrosion

        <bullet>  Technologies that can better accommodate degraded 
        water sources (like Wet Surface Air Coolers)

        <bullet>  Long-term experience and guidelines on using degraded 
        water sources (example: brackish and salt water cooling towers)

Dry Cooling--Dry cooling works like the radiator on an automobile, 
where heat is rejected to the atmosphere by passing air over a heat 
exchanger, usually by using fans. There are generally two types of dry 
cooling. Air-cooled condensers (ACCs) are used to condense and cool the 
steam directly from the turbine (Figure 10). The steam is ducted to the 
ACC in large piping. With indirect dry cooling, the steam is cooled in 
a traditional condenser using a recirculating water loop. The warm 
water is then pumped to an air-cooled heat exchanger, where it is 
cooled and returned to the condenser.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While dry cooling can virtually eliminate the water required to 
cool power plants, it does have drawbacks.

        <bullet>  Cost--The capital cost for dry cooling systems is 
        significantly higher, typically over 10 percent higher than wet 
        cooling systems (Figure 11), because they require the 
        manufacture of large finned-tube heat exchangers, large fans 
        and drive motors, and large steel structures to provide ground 
        clearance for proper air circulation. There are also higher 
        operating costs associated with dry cooling. The fans needed 
        for air circulation are much larger and more numerous than 
        those required for a wet tower. This increases the parasitic 
        load on the unit, and reduces the net power available from the 
        plant. Dry cooling cools water to the dry-bulb temperature, 
        which means that the water returned to the plant will be warmer 
        than it would be with a wet cooling tower (which cools to the 
        wet-bulb temperature) or once through cooling (which cools to 
        the local surface water temperature). This higher temperature 
        has the effect of reducing unit efficiency, which can mean up 
        to and over a 10 percent efficiency penalty on the hottest 
        days.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        <bullet>  Size--Dry cooling systems are significantly larger 
        than traditional cooling towers and they require additional 
        land space to build.

        <bullet>  Noise--The large number of cooling fans can create 
        issues with noise for neighbors. This can be alleviated with 
        the purchase of low-speed, low-noise fans, but this type of fan 
        adds significantly to the cost.

        <bullet>  Wind Effects--Many utilities have experienced wind 
        impacts on their air cooled condensers. These wind impacts have 
        caused sudden drops in load, and in extreme cases, unit trips. 
        High winds, especially gusty winds, can cause stalling of the 
        air flow in leading edge fans, which causes a sudden drop in 
        the cooling capacity. This creates higher back pressure for the 
        steam turbine which cam lead to blade damage. If the control 
        system is fast enough, it will be able to reduce steam flow 
        (reducing load) and protect the turbine. If the back pressure 
        rises too rapidly, and the control system cannot close the 
        steam valves fast enough to protect the turbine, the unit will 
        trip in order to protect the turbine from major damage.

    EPRI has sponsored a great deal of research into addressing these 
issues for dry cooling. We have already investigated the wind effects 
and have developed a simple wind screen that should eliminate most of 
the wind issues. Additional research is needed to field test and 
demonstrate the technology and move it to commercial application. EPRI 
also believes that further improvements in efficiency of dry cooling 
could be made by improving the heat transfer characteristics of the 
condensing steam and the finned tubes. Significant improvements in 
finned tubes in recent years have resulted in better heat transfer and 
lower manufacturing costs, but there is still room for improvement in 
this area.

Hybrid Cooling--Hybrid cooling systems (Figure 12) provide a 
combination of a wet cooling tower and a dry cooling tower. This 
arrangement allows most of the heat to be rejected to the atmosphere on 
the cooler days, and still have high efficiency during hot days, with 
the wet tower taking part of the cooling load when the temperatures are 
higher. This system is becoming more popular because the tower sizes 
can be minimized to reduce additional costs, and performance is better 
than air-cooling only.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    EPRI is just beginning a research program to assess the state-of-
the-art for hybrid towers. There are many ways to optimize such a 
system, depending on the goals of the plant design and the available 
water sources. The guidelines EPRI will be developing will assist plant 
designers with this optimization process.
    There may also be a research need in helping plant operators decide 
when to use the wet cooling portion of the hybrid system. When 
operators are faced with a limited water source, and the need to 
preserve water for the hottest operating days of the year, some sort of 
forecasting and optimization tool would be useful in deciding when to 
use the wet cooling towers for maximum benefit (efficiency, power 
demand and power price).

Combined Cycles/Bottoming Cycles--Natural gas combined cycle (NGCC) 
power plants are common in the United States and are the predominant 
type of plant constructed in the last 10-15 years. NGCC plants have 
many benefits that make them the logical choice. The combined cycle 
provides for much higher efficiencies that, in return, reduces the fuel 
costs. This also has the effect of lowering the carbon emissions for 
each unit of power generated.
    NGCC plants (Figure 13) also can provide a large water conservation 
benefit. Since roughly two-thirds of the power is produced by the 
combustion turbines, which do not require cooling water, the cooling 
water consumption is reduced by an equivalent amount. In addition, the 
one-third of the power produced by the steam generator/turbine can be 
cooled by ACCs, further reducing the water usage. The ACC will be 
smaller, since it is only cooling one third of the total plant, and any 
efficiency penalties on hot days would only be incurred on that one 
third of the capacity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Bottoming cycles (Figure 14) are another way to increase the 
efficiency of a traditional steam plant. Such cycles were investigated 
by EPRI and Electricite de France (EdF) in the 1980's, and these cycles 
are being examined again in light of upcoming water constraints. 
Increasing the power output from thermal plants would provide for 
decreased water consumption per unit power generated. These systems, 
for now, appear very costly, and managing the working fluids (ammonia 
or supercritical CO<INF>2</INF>) poses a potential safety risk. 
However, additional research into combined cycle options, including 
bottoming cycles, may lead to economical systems to improve power plant 
efficiency, reducing both emissions (including carbon) and water 
utilization.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Water Recapture and Water Reuse--There is a significant amount of water 
lost through power plant stacks (flue gas from fossil fuels) and 
cooling tower plumes. DOE-NETL has been sponsoring work to develop the 
Air-2-AirTM system (Figure 15) for capturing moisture in cooling tower 
plumes. Water loss could potentially be reduced by 15-30 percent.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Energy and Environmental Research Center at the University of 
North Dakota is pilot testing a desiccant system to recover water from 
flue gas. Lehigh University has also received DOE funding to develop 
condensing heat exchangers that will condense water from flue gas. 
KEMA, in the Netherlands, is developing a membrane system to extract 
water from flue gas. All of these technologies hold promise to replace 
part of the water requirements for power generation, but need 
additional research before they can be considered commercially 
available or economical.
    Power plants in operation today already employ many practices to 
reuse water within the plant. Water is typically ``cascaded'' from one 
use to another, depending on the quality of water that is needed for 
each process. Some examples include:

        <bullet>  Fresh water that is treated and used for boiler 
        feedwater

        <bullet>  Wastewater from the water treatment system is used as 
        makeup in the Flue Gas Desulfurization (FGD) system

        <bullet>  Boiler blowdown is used as makeup in cooling water 
        system

        <bullet>  Cooling tower blowdown is used as makeup in the FGD 
        system

        <bullet>  FGD blowdown is used for ash sluicing

        <bullet>  Ash pond runoff is used for fly ash wetting (dust 
        control)

    By tightening the water balance in the plant, many utilities have 
already mastered the art of water reuse. Investments in research for 
more efficient and lower cost wastewater treatment systems would allow 
for even greater recycling and reuse. EPRI is sponsoring research in 
many areas of wastewater treatment, zero liquid discharge and water 
management toward this goal.

Role of Renewable Resources--Renewable energy from wind, solar 
photovoltaic, geothermal (with brine water cooling), hydroelectric, 
marine and hydrokinetic sources all require little to no water 
consumption. To the extent that these technologies can economically 
penetrate the generation mix, water use can be reduced. EPRI has an 
extensive research program into renewable energy sources, and is 
supporting the commercialization of new and better technologies to 
reduce the cost of these resources and reduce their environmental 
impacts.

Advanced Desalination Techniques--Sandia National Labs has had an 
extensive membrane and desalination program that has provided 
improvements in membrane technologies for reverse osmosis and other 
issues like salt management. As degraded water sources are used to 
replace potable water sources, economical desalination technologies 
will help reduce the costs of water treatment in the electric industry 
as well. Additional research into better membranes and new desalination 
concepts will have a dual effect. By reducing the cost of desalination, 
the use of degraded water sources in power plants becomes more 
economical. In addition, better technologies will reduce the amount of 
electricity required and the cost of desalination to meet growing 
population demands for fresh water. This research could have major 
impacts on society as a whole in future years. Additional research is 
also needed to address salt management, especially in inland areas 
where ocean disposal is not an option.
    EPRI is also investigating a new forward osmosis technology that, 
if feasible, would be a breakthrough in desalination, and wastewater 
treatment and reuse. These ``breakthrough'' technologies could have a 
major impact on how we develop new water sources for everyone, not just 
the utility sector.

V. Research Needs

    Most of the technologies described above are still in the 
development stage or have limits on where they can economically be 
applied. Additional work will be needed to develop viable options and 
provide solutions to water conservation needs in the electric sector. 
None of these water conserving options are universally applicable. Each 
has its advantages based on such factors as fuel type, plant design, 
local water sources, meteorological conditions and other factors. All 
of the alternative options for water conservation are more expensive 
than using traditional cooling towers and once through cooling using 
fresh water sources. However, these economics are based on the current 
price of raw water, and that price is expected to increase 
dramatically, especially over the typical 50-60 year life of a new 
power plant. In order to protect the capital investment that is made 
when building a new plant, power companies must be assured of a 
constant water source for the duration. The utility industry, and 
ultimately the rate payers, will benefit from a ``toolbox'' of 
potential solutions to allow for a best-fit solution to each plant for 
water conservation.
    In order to reduce these costs and have a variety of options to 
choose from in a water constrained world of the future, extensive 
research is needed. These research plans have been developed in 
cooperation between the federal government (primarily DOE and the 
National Labs) and EPRI.

        <bullet>  Engineering and Economic Analysis: Although the 
        choice among various water-use technologies depends on a 
        variety of plant-specific considerations--including climate and 
        the cost of available water--clear guidelines for the economic 
        and operational consequences of alternative water conservation 
        technologies are not available. Thus there is a need to develop 
        an analytical framework to help guide plant decisions in the 
        selection of equipment and approaches for addressing water 
        needs.

           Previous EPRI research has laid the groundwork for such a 
        framework by comparing the economics of various cooling 
        technologies in particular circumstances for fossil plants. 
        EPRI is planning additional research that will develop a 
        decision framework for utility planners to readily compare 
        costs and performance of alternative air and water cooling 
        systems for thermoelectric plants. Follow-on work will adapt 
        the framework for analysis of other water-conserving 
        technologies.

        <bullet>  Improving Dry and Hybrid Cooling: Although there are 
        currently several power plants that use dry cooling, most are 
        gas-fired, combined-cycle units. There is only limited 
        experience with dry cooling on a large scale and under baseload 
        operations. In addition to the guidelines EPRI will be 
        developing for designing and operating these systems, there is 
        additional need for basic research to improve them. The 
        greatest research need is to reduce capital and operating cost 
        of these systems.

        <bullet>  Reducing Water Losses from Cooling Towers: One of the 
        most promising ways to reduce water consumption from existing 
        systems is to capture the evaporative losses from cooling 
        towers, which could produce savings up to $1.2 million annually 
        for a 350-MW plant. A number of new options are currently being 
        explored. The Air to Air heat exchanger described earlier could 
        recapture about 15-30 percent of water exiting the cooling 
        tower. This technology is being prepared for full-scale field 
        testing. EPRI is also proposing additional research into 
        optimization of water use in existing cooling towers. While 
        these reductions are likely to be small, the cumulative effect 
        over entire plants could be quite significant. In addition, 
        efficiency gains in plant operations can have a similar effect 
        in providing additional power to the grid for the same cooling 
        water load.

        <bullet>  Use of Degraded Water: To reduce the demand for fresh 
        water, plants in some regions are considering the use of 
        nontraditional sources of degraded water, such as treated 
        municipal effluent, contaminated groundwater, and agricultural 
        irrigation return water. A major obstacle, however, is the cost 
        of treating degraded water before it can be used in a power 
        plant. In addition to the technology research needs identified 
        before, additional research is needed to develop a better 
        inventory of potential sources and explore the feasibility of 
        matching these sources with cost-effective pretreatment 
        technologies.

        <bullet>  Water Resources Management and Forecasting: Episodic 
        droughts and water shortages are an increasing problem in all 
        regions of the U.S. An example of needed research in this arena 
        is comparing the performance of available climate models to 
        improve the forecasting of droughts. Additional research would 
        also provide better decision-support tools, development of 
        effective strategies for coping with water shortages, and 
        integrated predictions of climate change impacts by 
        incorporating output from climate models into watershed models 
        to assess future water availability.

    EPRI has estimated the total cost of such a research program as 
$40 million over a 10-year period. The potential benefits of using the 
technologies developed as part of such a program would be substantial 
at the plant level through improved efficiency of plant operation and 
significant reductions in water use. The technical potential exists to 
increase water use efficiency and water conservation in thermoelectric 
generation. Realizing this potential and the associated cost savings 
will require a sustained research program dedicated to water 
sustainability. Such a program could create a portfolio of new 
technologies and practices that utilities could apply in site-specific 
ways to achieve substantial benefits.
    EPRI, the electric sector, DOE, the California Energy Commission 
and others have invested in decades of research to bring us to this 
point, and we are continuing to invest in the next generation of water 
conserving technologies. This research investment today will have a 
tremendous payoff for the industry and the country in the future.

Appendix A

                 Government Funding of EPRI Research on

         Water Sustainability and Advanced Cooling Technologies

 1.  Use of Produced Water in Recirculating Cooling Systems at Power 
Generating Facilities. NETL/USDOE. $735,000.

 2.  Technical Support for National Energy-Water Report to Congress. 
Sandia/USDOE. $50,000.

 3.  Water/Energy Sustainable Residential Development. WERF/USEPA. 
$850,000.

 4.  Ohio River Basin Regional Water Quality Trading Program. USEPA. 
$995,000.

 5.  Alternative Cooling. California Energy Commission. $320,000.

 6.  El Dorado Spray Enhanced Cooling. California Energy Commission. 
$252,000.

 7.  U.S. Wave Energy Resource Assessment. USDOE. $500,000.

 8.  Eel Downstream Passage. USDOE. $50,000.

 9.  Lab Evaluation of Cylindrical Wedge Wire Screens. USEPA. $150,000.

10.  Field Evaluation of Wedge Wire Screens. USEPA. $300,000.

11.  Field Evaluation of Strobe Lights for Fish Protection. USEPA 
$200,000.

12.  Engineering Design of Advance Hydropower Turbine USDOE. $600,000.

13.  Turbine Design Support. New York State ERDA. $250,000.

14.  California Hydropower Sedimentation Assessment. California Energy 
Commission. $50,000.

15.  Hydrokinetic Turbine Testing. USDOE. Proposal under review.

16.  River In-steam Resource Assessment. USDOE. Proposal under review.

17.  Live Cycle Cost Assessment of Wave and Hydrokinetic Power Plants. 
Proposal under review.

                    Biography for Bryan J. Hannegan

    Dr. Bryan Hannegan is Vice President, Environment and Generation 
for the Electric Power Research Institute (EPRI). In this capacity, he 
leads the teams responsible for EPRI's research into technologies and 
practices that maintain a safe and reliable power plant fleet, develop 
cleaner and more efficient power generation options for the future, and 
reduce the environmental footprint associated with electric power 
generation, delivery and use.
    Prior to joining EPRI in September 2006, Hannegan served in a dual 
capacity as the Chief of Staff for the White House Council on 
Environmental Quality (CEQ), and as an acting Special Assistant to the 
President for Economic Policy. During his tenure, he led the 
development of the President's Advanced Energy Initiative and assisted 
federal agencies in their implementation of the Energy Policy Act of 
2005 (EPACT 2005). At CEQ, Hannegan also coordinated federal agency 
policies and activities on a wide range of environmental issues 
affecting air, water, land, and ecosystems.
    Between 1999 and 2003, Hannegan served as Staff Scientist for the 
U.S. Senate Committee on Energy and Natural Resources, where he handled 
energy efficiency, renewable energy, alternative fuels, and 
environmental aspects of energy production and use. He put together the 
first draft of what would become EPACT 2005, and was a principal staff 
member for action on energy and climate legislation during the 107th 
Congress.
    A climate scientist, engineer and energy policy expert, Hannegan 
holds a doctorate in Earth system science, a Master of Science in 
engineering, both from the University of California-Irvine, and a 
Bachelor of Science in meteorology from the University of Oklahoma.

    Chairman Baird. Thank you, Dr. Hannegan. Mr. Murphy.

     STATEMENT OF MR. TERRY MURPHY, PRESIDENT AND FOUNDER, 
                          SOLARRESERVE

    Mr. Murphy. Good morning, Chairman Baird and the Committee. 
Thank you for giving me the opportunity to be here today.
    I am the co-founder of SolarReserve, after a 27-year career 
at Rocketdyne, where I was the Director of Advanced Programs. 
So you might be able to say that actually I am a rocket 
scientist. My executive responsibilities at Rocketdyne covered 
a wide range of advanced power systems for both space and 
terrestrial applications. We generated over 40 patents that 
leveraged aerospace technologies into clean and renewable 
terrestrial energy projects. So I appreciate the opportunity to 
give my perspective on this important issue.
    As the other members have already said, power-plant cooling 
systems currently account for roughly one-third of our 
freshwater withdrawals. This is a particular problem in the 
Southwest where there is already a scarcity of water resources 
and where solar thermal plants, the things that I am working 
on, are expected to flourish. Solar-based electricity will be a 
key enabler in achieving our renewable energy goals, but water 
is also a key ingredient for electrical power generation, and 
we have got to look at that with a total approach.
    CSP power plants, concentrated solar power, capture the 
sun's thermal energy by focusing mirrors onto thermal receivers 
and then transforming that energy into steam, which in turn 
then drives steam turbines. These turbines have an inertia in 
them that allows them to go through the transients that you see 
in photovoltaics and other types of things. So they have the 
thermal capability to ride that through, and the utilities like 
it because it matches the common stock, the rolling stock that 
they currently have within their inventory.
    Our technology at SolarReserve takes all that to the next 
level in that we actually run these on molten salts, and so 
instead of just trying to take the thermal energy and convert 
it to steam, we are actually putting the energy into molten 
salts which can retain that heat and operate these systems on 
demand. And so now you have a power plant that operates like a 
combined cycle plant that are predictable, have zero price 
volatility, zero fuel costs, and can provide reasonable power 
for generations to come.
    As discussed here, all conventional steam turbines can be 
dry cooled, and we have already talked about that. Most of them 
are wet cooled, and you have already heard of people talking 
about the water consumption on wet-cooled turbines. 
Unfortunately, the air-cooled performance gets hit when it is 
needed the most. And so when you go into an air-cooled system, 
on the hottest days is when you are really seeing the 
performance degradation. And so you can see up to 30 or 40 
percent of degradation right when you need the power the most.
    So we need to be very cautious about when we are moving 
forward on, you know, how we put water and the water allocation 
into these plants.
    There is an interesting technology called hybrid technology 
which is a combination of wet- and dry-cooled systems, and it 
may be the best alternative for reducing water plant 
consumption. Hybrid systems operate without water when the 
ambient air temperature allows it to, and then if it gets 
really hot, only then do they start consuming water. And if you 
do that you can potentially have an 80 percent reduction in 
your water.
    So you know a lot has been talked about the cost. I think 
one of the things the Committee has to look at is what is the 
public policy? You know, I have never seen a power plant that 
without being regulated would go to dry cooling. And so it 
really becomes a question of how much is it going to cost and 
the ability to have the rate payers pay for that. I mean, if we 
have got to look at water that way, that is the way we have to 
approach it.
    There are a lot of things I can talk about through 
questions and answers in advanced technologies on Closed-Loop 
Brayton cycles, and it is a little bit intuitively backwards, 
but the hotter you go, the easier it is. So technologies that 
push temperature are a good thing for us because of the 
rejection temperature.
    I would also like to mention there is a system on the 
FutureGen, on the advanced coal system, and there is maybe an 
opportunity for the Committee to think about looking at a 
FutureGen and solar on a CSP plant where I really believe we 
have the technology to build the ideal power plant, and maybe 
we can replicate something that is going on on the coal side.
    So concentrated solar power is not going to solve all of 
our energy problems, but they do represent the best utility 
scale system for the American Southwest. We can run large steam 
turbines, and when you start looking at the types of these 
facilities, a single facility can generate 500 million kilowatt 
hours on an annual basis and do that on demand, which would 
reduce, you know, 500,000 pounds of CO<INF>2</INF>. So it can 
definitely make an impact.
    These new plants--we talked about aging plants. We could 
replace the coal plants with facilities like these, and many 
are in the works. Many are being permitted right now. You are 
looking at about 500 jobs per year in construction for each one 
of those plants.
    So I look forward to answering your questions this morning 
and hope that a brief exchange of our ideas that we can try and 
put a little bit more light on this really important subject. 
Thank you.
    [The prepared statement of Mr. Murphy follows:]

                   Prepared Statement of Terry Murphy

    Good Morning Chairman Gordon and Members of the Committee.
    Thank you for this opportunity to appear before you this morning to 
discuss the linkage between Energy and Water. My name is Terry Murphy 
and I'm the President and Founder of SolarReserve.
    I co-founded SolarReserve, along with U.S. Renewables Group, after 
a twenty-seven year career at Rocketdyne, where I was the Director of 
Advanced Programs. My executive responsibilities at Rocketdyne covered 
a wide range of advanced power systems for both space and terrestrial 
applications. My business unit generated over 40 patents which 
leveraged aerospace technologies into clean and renewable terrestrial 
energy projects, so I appreciate the opportunity to offer my 
perspective on water usage in the generation of electricity.
    Solar Reserve is a U.S. company, based in Santa Monica, California, 
which is leveraging U.S. technology, DOE investments and local 
manufacturing to address our energy security and energy related 
environmental concerns. SolarReserve has the exclusive worldwide rights 
to the United Technologies, Pratt & Whitney Rocketdyne molten salt 
power tower technology that was thoroughly validated by the Department 
of Energy at the Solar Two pilot plant in Barstow, California from 1995 
to 1999.
    United Technologies, a Fortune 30 company, is standing behind this 
technology by guaranteeing the performance of the system, which is key 
enabler to successful project finance.
    The critical components in this facility are engineered by the same 
team at Pratt & Whitney Rocketdyne that designed and built the 
International Space Station solar power systems, the Space Shuttle Main 
Engines, and the Apollo moon rocket propulsion systems. This is world-
class American technology generating American jobs, erecting critical, 
desperately needed infrastructure and establishing a foothold to our 
permanent energy independence.
    Our unique, molten salt, solar power technology solves a key 
fundamental challenge of renewable energy: storage. Wind only has a two 
percent correlation with electrical energy demand in California, so 
while building a wind farm may satisfy the Renewable Portfolio 
Standards (RPS), it does very little to satisfy customer requirements.
    Conventional solar, the rooftop photovoltaic (PV) that we are all 
familiar with is more coincident with demand, but intermittent cloud 
cover can cause it to drop off in milliseconds; and what's worse, turn 
right back on just as quickly. While these systems have minimal water 
use and are great for distributed rooftops, Utility scale deployment of 
PV could introduce problems with grid stability and reliability due to 
a rapid and unpredictable intermittent generation profile.
    Conversely, a SolarReserve power plant generates electricity from 
the sun's heat; this type of solar energy is known as Concentrated 
Solar Power (CSP). These power plants capture the sun's thermal energy 
by focusing thousands of heliostats (or mirrors) on to a central 
receiver, converting and storing that energy in molten salt and then 
transforming that energy into steam, which in turn drives turbines. 
Unlike a photovoltaic power system, however, the molten salt CSP 
technology allows electricity to be generated on demand and controlled 
like any conventional power generator. These load following power 
plants operate on a highly predictable and dependable fuel supply, the 
sun! They have zero price volatility, zero fuel costs, and can provide 
reasonably-priced renewable electricity for generations to come. The 
technology does not require toxic operational fluids and last, but not 
least, SolarReserve technology does not require natural gas or other 
fossil fuels.
    Like any power plant technology using a conventional steam turbine, 
our system can be Air-Cooled, reducing overall plant water consumption 
significantly relative to any water-cooled plant, particularly older 
plants which use less efficient technologies or water-saving designs. 
We believe, however, that we need appropriate public policy and 
economic incentives to realize this opportunity in the competitive 
marketplace since, relative to conventionally water-cooled generators, 
air-cooled technologies have a significant impact on electricity 
production efficiency and cost of electricity. In addition, 
SolarReserve encourages collaborative research with the Department of 
Energy into technologies that could further reduce our water 
consumption and increase our plant performance, thereby putting us on 
track to build the ``Ideal Power Plant.''
    SolarReserve Power Towers can't solve all of our energy problems, 
but I believe that they do represent the best utility scale renewable 
energy system for the American Southwest. Because SolarReserve Power 
Towers operate on demand, they are perfectly suited to replace the 
aging coal-fired power plants that are currently operating in the 
Southwest. SolarReserve already has fifteen projects in various stages 
of development, with the first project in the United States slated for 
Tonopah, Nevada. This system will provide 500,000,000 kW-hr per year of 
clean, emission free, renewable energy and would abate over 500,000 
tons of CO<INF>2</INF> when compared to a coal fired power plant over 
its operating life.
    Our $700 million dollar Tonopah facility is scheduled to begin 
construction in 2010. Solar Reserve hopes that this committee will 
support our efforts to expedite the federal review and approval process 
by working directly with the Department of Defense, the Federal 
Aviation Administration and the Bureau of Land Management, so that this 
project can avoid further costly delays. SolarReserve will employ 
nearly 500 people during the two year construction period and will 
operate with 50 permanent positions. In addition to Tonopah, 
SolarReserve has significant development activities in California, 
Arizona, New Mexico, Colorado, Utah, and several international efforts, 
including two projects is in Spain.
    I look forward to answering your questions this morning and hope 
that our brief exchange of ideas, along with my written testimony will 
provide you with a more comprehensive analysis and awareness of water 
usage in power plants and the true potential of Concentrated Solar 
Power technologies.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Biography for Terry Murphy

    Mr. Murphy co-founded SolarReserve, along with U.S. Renewables 
Group, after a twenty-seven year career at Rocketdyne, where he was the 
Director of Advanced Power Systems and Business Development. His 
executive responsibilities at Rocketdyne covered a wide range of 
advanced power systems for both space and terrestrial applications. His 
former organization continues to be a recognized technology leader in 
concentrated solar power, liquid metal heat transport, systems 
engineering of space power/propulsion systems, and nuclear power 
generation.
    Prior to the acquisition of Rocketdyne by United Technologies, Mr. 
Murphy was the Division Director of Boeing Energy Systems. His business 
unit generated over 40 patents which leveraged aerospace technologies 
into clean and renewable terrestrial energy projects. Mr. Murphy 
solidified many external partnerships, which led to the redesigned and 
improved the reliability of gas turbines, coal gasification and 
hydrogen production systems. Mr. Murphy was also responsible for a host 
of technology contracts supporting the NASA exploration initiatives and 
led the capture of a deep space radioisotope thermoelectric generator 
power system award from the Department of Energy.
    As the Director of Advanced Engine Programs and International 
Business Development, Mr. Murphy formulated the design of the RS-68 
booster engine for the Boeing Delta IV launch vehicle and initiated 
several international teaming agreements for upper stage engines. The 
RS-68 is the largest hydrogen engine in the world and was originally 
developed for commercial launches, and has also been selected by NASA 
for their next generation launch system due to its low cost and 
demonstrated reliability.
    Mr. Murphy earned a Bachelor of Science in Aeronautical and 
Astronautical Engineering from Purdue University and was honored in 
2005 with their Outstanding Engineering Award. He also earned a Master 
of Science in Systems Management from the University of Southern 
California, is an Associate Fellow of the AIAA and has authored several 
patents relating to concentrated solar power applications.

    Chairman Baird. Thank you very much. The tradition of the 
Committee is that if one of our witnesses is from the home 
state of one of the Members, the Member gets to introduce that 
witness. And I will recognize Mr. Inglis for that purpose.
    Mr. Inglis. Thank you, Mr. Chairman, for giving me the 
opportunity to brag on General Electric and Rick Stanley. We 
have 1,500 engineers and 1,500 production people in the GE 
facility in Greenville, and Rick Stanley is the guy in charge 
of all those engineers. And so he is a Notre Dame Bachelor's 
degree holder who then worked for GE Aircraft, got a Master's 
degree in aerospace engineering at the University of 
Cincinnati, had lots of promotions with the company, and then 
in 2005 came to his current post which is Vice President and 
General Manager of Engineering Division for GE Energy. And it 
is particularly exciting to have him here because he is working 
on power generation, gas turbine, steam turbine, gasification, 
controls, generators, wind, aeroderivatives, nuclear, solar and 
services segments of General Electric. That is quite a 
portfolio. He holds five patents himself, and we are very happy 
to have him in Greenville and very excited about having General 
Electric in Greenville making wind turbines and gas turbines 
and figuring out ways to repower our lives. So Mr. Stanley?
    Chairman Baird. Thank you, Mr. Inglis. Before you begin 
your testimony, let me just share with my colleagues, we have 
about 12 minutes left on this vote. We will have time for Mr. 
Stanley's testimony. Then, my friends, we are going to have to 
recess probably for at least 45 minutes, possibly longer. We 
had some nightmarish days a while back, and I apologize for 
that.
    So what we will do is I will tell my colleagues when we 
have five minutes to give us plenty of time to go get this in 
critical motion to adjourn vote, doubtless followed by 
similarly critical votes, but nevertheless, we do have to make 
that vote.
    So Mr. Stanley, please proceed. I know you will do your 
best to keep within five minutes, and then we will decide where 
to go from there. Thank you.
    Mr. Stanley. Will do. Thank you very much, Congressman.

     STATEMENT OF MR. RICHARD L. STANLEY, VICE PRESIDENT, 
                ENGINEERING DIVISION, GE ENERGY

    Mr. Stanley. Mr. Chairman and Members of the Subcommittee, 
I appreciate the opportunity to testify today on the critical 
link between energy and water.
    I have four recommendations for public-private partnerships 
to address this linkage. First, greater investments in water 
reuse technologies to facilities in pilot new technologies; 
second, federal support for research, development and 
demonstration of high-efficiency natural gas turbine technology 
as envisioned in H.R. 3029; third, increased research in system 
integration of desalination processes; and finally, additional 
research on large-scale demonstration of organic rankine cycle 
technology for waste heat recovery.
    Energy and water are co-dependent, and in its simplest 
terms, energy is required for producing water and water is 
required for the production of energy. In the United States, 
demands for water related to electricity production are 
expected to nearly triple from 1995 consumption levels. 
Significant quantities of water are used throughout the power 
generation cycle in boilers, cooling towers, and fuel gas and 
emission treatments. With water treatment and reuse, important 
reductions could be made in the amount of water consumed in 
power generation.
    GE is working to develop high-efficiency membrane materials 
that will allow for through-puts that increase water flow by a 
factor of 10-plus and further reduce energy costs. Achieving 
these results requires advances in manufacturing technologies, 
materials and processes, as well as the establishment of 
facilities to pilot new technologies.
    We can accomplish this most effectively through joint 
government, industry and university initiatives. Wider 
deployment of less water-intensive power generation 
technologies and improving the efficiency of these technologies 
represents another important opportunity to reduce water 
consumption in power generation.
    Currently natural gas combined cycle power plants represent 
about 20 percent of the country's electric generation. Now, on 
a per-megawatt basis, natural gas combined cycle plants utilize 
less than 50 percent of the water used by our pulverized coal 
plants which comprise the largest percentage of U.S. power 
generation capability today.
    Today's most advanced gas turbines are capable of reaching 
up to 60 percent efficiency. Aggressive technology advancement 
can lead to 65 percent efficiency. Now this is a stretch goal, 
but one that is worth aiming for because a one percentage point 
improvement in efficiency applied to GE's existing F-class 
fleet in the United States would result in CO<INF>2</INF> 
emission reductions of 4.4 million tons per year while 
providing savings of more than $1 billion per year in fuel 
costs, all while using far less water than alternate 
technologies.
    GE Energy has invested over $1 billion in the gas turbine 
technology during the past three years, but more work is 
needed. The Department of Energy can partner with U.S. private 
industry to reduce the inherent risk in the required research 
and development efforts. H.R. 3029, introduced by 
Representative Paul Tonko and referred to this committee 
provides the basis for such a partnership. GE commends 
Representative Tonko and applauds the House of Representatives 
for including this proposal in the recently passed American 
Clean Energy and Security Act.
    For desalination applications, GE's LMS 100 aero-derivative 
gas turbine has heat rejection that can ideally be integrated 
with a desalination process to produce clean water as well as 
power while achieving substantial savings in total power usage. 
Further research is needed in system integration to achieve 
these benefits at a low cost.
    The organic rankine cycle offers the opportunity to reduce 
dramatically the need for water and energy production. This 
technology utilizes an organic solvent as a working fluid to 
extract power from low-grade waste heat in a gas turbine. The 
key advantage is that it is a closed cycle, and it does not 
utilize water. GE is working to evaluate this technology. 
However, there are significant needs for development and 
demonstration on a large scale before this opportunity can 
become a reality.
    In summary, Mr. Chairman, the nexus between power 
generation and water usage is one of the world's most complex 
and critical public policy challenges. GE believes that the 
Congress can play an important role in bringing focus and 
facilitating partnerships between the U.S. Department of Energy 
and the private sector in areas including water reuse, gas 
turbine technology advancement, integration of desalination, 
and organic rankine cycle technology for gas turbine 
applications.
    Thank you, and I would be pleased to answer any of your 
questions.
    [The prepared statement of Mr. Stanley follows:]

                Prepared Statement of Richard L. Stanley

    Mr. Chairman and Members of the Subcommittee, I am Rick Stanley, 
Vice President of GE Energy's Engineering Division. I appreciate the 
opportunity to testify today on the link between energy and water and 
technologies that can enable us to better manage these interrelated 
resources. GE has long recognized the connection between energy and 
water, and commends the Committee for its efforts to explore and make 
progress on this critically important topic. In my testimony today, I 
will address three major points: the depth of the challenges 
surrounding the use of water in power generation, the role of current 
technology in addressing these challenges, and the need for targeted 
research and development through public-private partnerships.

Background

    GE is a global leader in power generation technology and products 
with more than 100 years of industry experience. In 2008, GE's water 
and power generation businesses were integrated to better meet customer 
needs and address significant global challenges. Our team of more than 
30,000 employees operates in 140 countries around the world, and had 
2008 revenues of $23 billion. GE Power & Water offers a diverse 
portfolio of products and services, including renewable energy 
technologies such as wind, solar, and biomass, and fossil power 
generation, gasification, nuclear, oil & gas, transmission, and smart 
meters. GE Power & Water likewise has technologies for water treatment 
and use, including process chemicals, water chemicals, equipment and 
membranes.
    At GE, we see the importance of achieving water and energy 
efficiencies across our own portfolio of businesses. In 2005, GE 
launched a global environmental initiative called ecomagination. We 
have committed to reduce our greenhouse gas emissions by 30 percent on 
a normalized basis (allowing for projected growth of GE's businesses), 
or one percent in absolute terms from 2006 to 2012. In addition, we 
have committed to reducing our water consumption by an absolute 20 
percent during the same time frame. At the same time, we're working 
with our customers around the world to help them achieve similar 
efficiencies.
    In addition, GE is doubling its level of investment in clean 
research and development from $700 million in 2005 to more than $1.5 
billion by the year 2010. This research effort is focused on helping 
our customers meet pressing energy and water challenges.

The Energy-Water Nexus

    It could be said our economy runs on water. Unfortunately, water 
demand already exceeds supply in many parts of the world. And, as the 
world's population continues to grow at an unprecedented rate, many 
more areas are expected to experience this imbalance in the near 
future.\1\ The situation is no different here in the United States, 
where most states expect water shortages during the next decade.
---------------------------------------------------------------------------
    \1\ Greenfacts.org
---------------------------------------------------------------------------
    Energy and water are co-dependent. In simplest terms, energy is 
required for producing water and water is required in the production of 
energy. Globally, the demand for both of these crucial resources is 
projected to grow at an alarming pace, with energy demand doubling\2\ 
and water demand tripling\3\ in the next 20 years.
---------------------------------------------------------------------------
    \2\ DOE/EIA-0384 (2004).
    \3\ NETL 2006.
---------------------------------------------------------------------------
    As we prepare to meet the future electricity demands here in the 
U.S., corresponding demands for water related to electricity production 
are expected nearly to triple from 1995 consumption levels. In 
addition, the deployment of technologies to meet expected carbon 
emission requirements will increase water consumption by an additional 
one to two billion gallons per day.\4\
---------------------------------------------------------------------------
    \4\ NETL 2006.
---------------------------------------------------------------------------
    Water reuse represents a significant opportunity to achieve 
reductions in water consumption for power generation. It is estimated 
that 45 percent of freshwater withdrawals in the United States is used 
for industrial purposes.\5\ And nearly 90 percent of all industrial 
water--or 39 percent of all freshwater withdrawals--is used for the 
generation of power.\6\ Although power generation facilities in the 
United States today withdraw 136 billion gallons per day (GPD), they 
only consume four billion GPD through evaporation and other means. The 
vast majority of the water is used for once-through cooling water 
applications, and then returned to the receiving stream. Once-through 
cooling, however, consumes large amounts of energy to pump the water, 
and it also elevates the temperature of the receiving stream.\7\ It is 
often less expensive to pull water from a river or the ground than it 
is to reuse it.\8\ In addition, many power plants in the United States 
use potable water from municipal systems to meet their cooling and 
other needs.\9\ This places strains on community systems. If the 
cooling water needs could be met with reused wastewater, significant 
benefits would result.
---------------------------------------------------------------------------
    \5\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004.
    \6\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004.
    \7\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004.
    \8\ USGS, Estimated Use of Water in the United States in 2000, USGS 
Circular 1268, March 2004.
    \9\ Wade Miller, Executive Director, WateReuse Association (2009).
---------------------------------------------------------------------------
    Another opportunity for reductions in water consumption for power 
generation is in selection of less water-intensive power generation 
technologies and in improving the efficiencies of those technologies. 
For example, the use of advanced gas turbines in power generation 
applications contributes to water savings. Key applications include the 
use of natural gas combined cycle (NGCC) power plants and integrated 
gasification combined cycle (IGCC).
    NGCC plants currently account for about 20 percent of total 
electric generation in the United States. They are a highly efficient, 
flexible source of clean and reliable electric power, and can be 
constructed and installed in relatively short periods of time in 
comparison with other forms of electric generation. On a per megawatt 
basis, NGCC plants utilize less than 50 percent of the water used by 
pulverized coal power plants--which comprise the largest percentage of 
U.S. power generation capability today. Wider deployment of natural gas 
combined cycle plants--and technology advances to make those plants 
more efficient--will have a dramatic impact on water usage for power 
generation in the United States.
    IGCC is a power generation technology that gasifies coal to remove 
pollutants and capture carbon prior to combustion. IGCC technology is 
commercially ready to utilize the abundant coal resources here in the 
U.S., with both lower emissions and reduced water consumption. GE is 
building the first fully commercial IGCC plant at Duke's Edwardsport, 
Indiana facilities. This new GE IGCC generation plant will utilize 30 
percent less water and offer significant emissions reduction benefits 
in comparison with a traditional pulverized coal facility. GE also is 
working with the University of Wyoming to develop advanced coal 
gasification technology, including a unique dry feed injection process. 
The development of this dry feed process will deliver IGCC's 
environmental benefits utilizing lower rank coals from Wyoming, 
Colorado, Montana, Utah, and South and North Dakota, while capturing 
the 30 percent reduction in water consumption.
    Beyond the fact that NGCC and IGCC have less intensive water 
consumption, continued advancements in gas turbine technology to 
achieve greater fuel efficiency will also reduce water consumption per 
megawatt of power produced.
    The following sections discuss the challenges and research being 
performed to enable cost-effective water reuse and improved gas turbine 
efficiency.

Water Reuse Challenges

    Throughout the cycle of power generation, significant quantities of 
waters are used in boilers, cooling towers, and gas fuel and emission 
treatments. Throughout this process the temperature, pH and contaminant 
levels of the water change significantly, bringing tremendous 
challenges to any water treatment scheme. The waters can contain a 
significant amount of oils, dissolved solids, minerals, and potentially 
ammonia, heavy metals and selenium. In order to reuse the waters in the 
process systems without damaging equipment, the waters must be cleaned 
to appropriate levels. This typically involves chemical treatments, 
water filtration, biological processes to purify the water, and often a 
thermal treatment to clean the waters. GE is investing in technologies 
throughout this cycle to make water treatment more cost-effective and 
robust, encouraging reuse and/or ecologically-friendly discharge. These 
treatments must be able to handle wide variability in water conditions, 
and be reliable and easily maintained.
    During fuel preparation and emission cleaning, waters utilized 
undergo significant change in temperature and pH, and pick up 
contaminants that may include mercury, nitrates, salts, metal 
compounds, and selenium. Broad portfolios of technologies must be 
developed to allow customers to find the appropriate solution for their 
process in order to effectively reuse the water.

Water Reuse Technology

    Technology used to treat water includes filtration products to 
remove particulate and organic matter, and membranes to remove 
dissolved minerals and organic matter that are present in essentially 
all natural water sources. State-of-the-art filtration products include 
hollow fiber microfiltration (MF) and ultrafiltration (UF) as well as 
spiral-wound nanofiltration (NF) and reverse osmosis (RO) membranes. In 
order to drive cost and energy efficiencies, investment in technology 
development will be required to meet future demands on water resources 
to meet growing needs in industrial and energy applications. In the 
near-term, significant focus is being applied to higher-flux membrane 
systems that will enable larger water production for each unit area of 
membrane. This will result in lower energy consumption per unit volume 
of water treated. The integration of advanced filtration systems for 
pretreatment for RO systems will further enable reductions in plant 
footprint, while simultaneously allowing for higher-throughput due to 
an improved ability to remove contaminants that are harmful to RO 
systems and currently require more conservative designs.
    Water scarcity requires high-recovery of product water in the 
removal of dissolved minerals from stressed, saline aquifers, such as 
in the Southwest USA, or for water reuse applications. GE is developing 
advanced technologies in electrically-driven processes for the removal 
of dissolved ions from these water sources that will allow for recovery 
of greater than 85-90 percent of feed water as product water. Not only 
will these systems enable improved efficiencies in water-management, 
they will also accomplish this at significantly reduced energy 
consumption as compared to current electrically-driven systems. This is 
being accomplished through advances in power electronics and novel 
energy-conversion systems. Furthermore, integration of renewable energy 
sources and advanced energy recovery devices will further reduce 
environmental impact and overall cost of operation by significantly 
lowering energy requirements.
    Anticipated increased water needs, coupled with projected 
shortages, require innovations that enable substantially higher 
efficacy in wastewater recovery and reuse. GE intends to address these 
needs through the development of high-efficiency membrane materials 
that will allow for throughputs that increase water-flux by a factor of 
10+, and further reduce energy costs and system footprint requirements. 
These innovations will be achieved through advances in manufacturing 
technologies and processes, as well as materials of composition, 
including advances in nano-materials. A major barrier to continuous 
operation and maintenance of water flux is membrane surface fouling by 
organic matter and mineral deposits. These effectively blind the 
surface and prevent flow through the membranes, which also leads to 
increased energy consumption. Advances in nano-materials can increase 
membrane capabilities in fouling control and increased flux with 
reduced energy consumption for water produced. Through novel 
incorporation of nano-materials into a membrane matrix, it is 
anticipated that biological growth can be mitigated. It is also 
expected that significant increases in membrane surface areas can be 
achieved with no increase in device size. Specifically designed and 
tailored nano-materials that can prevent mineral deposits from forming 
could also be envisioned. There are currently joint industry/university 
research programs in this highly-specialized technical area in Europe 
and other parts of the world. It is imperative that these capabilities 
be developed here to ensure that the United States remains at the 
technical forefront of this vital high-technology industry.
    Investments in the technologies and establishment of facilities to 
pilot new technologies will be needed to advance the state-of-the-art. 
The complexity of the waters and resulting complexity of the treatment 
systems will continue to be a barrier to broad adoption of water reuse. 
Joint government-industry-university initiatives will allow the power 
generation community to advance the knowledge of solution 
effectiveness, cost and reliability, allowing adoption to be more rapid 
and widespread.

Advanced Gas Turbine Technologies

    As the world leader in industrial gas turbines, GE has always been 
at the forefront of technology advancement that improves gas turbine 
efficiency. As efficiency is improved, more output is achieved for the 
same fuel consumption and water usage. Therefore, improvements in gas 
turbine efficiency yield reduced water consumption per MW of power 
output. To improve gas turbine efficiency, GE conducts research in 
technologies such as aerodynamics, aeromechanics, compressor, high-
temperature materials and coatings, heat transfer, combustion, 
controls, and manufacturing. In a current cost share program with the 
U.S. Department of Energy, GE is working on technology advancements for 
hydrogen fueled gas turbines that will be used when carbon capture is 
used on IGCC coal power plants.
    Current NGCC power plants are capable of reaching up to 60 percent 
efficiency. That means 60 percent of the thermal energy contained in 
the fuel is converted to useful power output. Aggressive Gas Turbine 
technology advancement can lead to 62 percent efficiency and define 
future technologies needed to get to 65 percent efficiency. The 
efficiency gain would not just apply to future power plants, but many 
pieces of the new technologies could be retrofitted into the existing 
gas turbine power generation fleet. General Electric's E and F class 
turbines are two of the backbones of the installed U.S. fleet, with 
about 450 E class and 560 F class units deployed throughout the 
country. A one-percentage point improvement in efficiency applied to 
GE's existing F Class fleet would result in CO<INF>2</INF> emissions 
reductions of 4.4 million tons per year while providing savings of more 
than a billion dollars per year in fuel costs.
    Today, GE Energy is making significant investments to advance 
technology and develop new products and capabilities. Over the last 
three years, GE Energy has invested over $1 billion into gas turbine 
products and technology. However, much more is needed to develop the 
new technologies to reach the game changing level of 62 percent 
efficiency. There is a distinct role for government, specifically the 
Department of Energy, to partner with U.S. private industry to reduce 
the inherent risk in the research and development efforts required to 
reach such an aggressive target. Besides the national benefits that 
will be realized for the U.S. in terms of water usage and emissions 
reductions, a public-private partnership on gas turbine efficiency will 
likewise have substantial economic and employment benefits, as well as 
benefits for our national competitiveness in the global market for new 
technologies. The fact that GE's foreign competitors receive funding 
from their governments poses a significant challenge to the United 
States' traditional preeminence and leadership in gas turbine 
technology development.
    H.R. 3029, introduced by Representative Paul Tonko and referred to 
this Subcommittee, provides the basis for a future partnership between 
industry and government to make the next big leap in gas turbine 
efficiency. GE commends Rep. Tonko for his efforts, and also applauds 
the House of Representatives for including this proposal in the 
recently-passed American Clean Energy and Security Act of 2009, H.R. 
2454. Because of the magnitude of the technological risks, a 
government-industry partnership is needed to address challenges 
inherent in moving the efficiency benchmark to 65 percent, in areas 
including development of high temperature materials, improvements in 
combustion technology, advanced controls, and high-performance 
compressor technology.
    Highly skilled engineers located at GE's Global Research Center and 
GE Energy facilities in Schenectady, NY, Greenville, SC, Houston, TX, 
and Cincinnati, OH will remain at the forefront of GE's efforts to 
advance gas turbine technology. GE Energy has had an outstanding 
collaboration with the U.S. DOE Fossil Energy team, including the 
National Energy Technology Laboratory. Our recommendation in the area 
of gas turbine technology is that the DOE, in addition to its current 
coal/IGCC gas turbine focus, be authorized and funded to also pursue 
advances in natural gas fueled gas turbine technologies.
    The remainder of the testimony will focus on specific technologies 
identified by the Committee as areas of interest.

Production of Clean Water--Desalination

    Desalination refers to any process that removes excess salt and 
minerals from water. Water desalination and its integration with power 
plants is an economically attractive approach to improving overall 
system efficiency. There are, in general, two approaches to 
desalination--Reverse Osmosis (RO) and Multi-effect Distillation (MED). 
Both processes can utilize waste heat from power plants to operate more 
efficiently in producing clean water.
    GE is taking leadership role in integrating desalination with power 
generation equipment. GE is working with external partners to promote 
use of gas turbines for use in desalination applications for both MED 
and RO processes. For example, GE's LMS100 aeroderivative gas turbine 
has heat rejection that can be ideally integrated with a desalination 
process to produce clean water as well as power. GE's Global Research 
Center has also developed low cost approaches to desalination that can 
be utilized in next-generation desalination applications.
    The main short-term technical challenges are in optimizing the 
overall system efficiency to produce power and water at the lowest 
cost. The MED process requires significant heat input, and proper 
integration with gas turbines can mean substantial savings in total 
power usage.
    GE would support research in system integration of desalination and 
power generation processes and development of the next generation 
technologies required to achieve this integration at low cost.

Organic Rankine Cycle--Power From Waste Heat Without Water Usage

    Organic rankine cycle technology utilizes an organic solvent as a 
working fluid in a rankine thermodynamic cycle to extract power from 
low-grade waste heat. This is similar to a steam cycle, but can recover 
lower grade heat since the organic solvent has a lower boiling point. 
There are several organic rankine cycle applications for heat recovery 
in geothermal and gas turbine applications. The key advantage is that 
it is a closed cycle, and it does not utilize water.
    GE is working with external industry leaders in evaluating this 
technology for gas turbine applications. Internally, GE is trying to 
develop next-generation organic rankine cycle technology that can be 
more efficient and also less expensive. This technology is already 
being used in the Oil and Gas industry for power generation in pipeline 
applications. For simple cycle gas turbines used in peaking 
applications, this technology can potentially recover heat to produce 
electricity without using incremental water.
    The key technology hurdle is reducing the capital cost of the 
equipment. Currently, the capital cost is 20-30 percent higher than a 
steam cycle. Current technology utilizes one fluid to recover waste 
heat from gas turbines and a second fluid to serve as the working 
fluid. Future systems may utilize a single organic solvent to recover 
waste heat and serve directly as the working fluid. Technology also 
needs to be demonstrated in a bigger scale for gas turbine 
applications.

Use of GE Jenbacher Gas Engines In Wastewater Treatment Systems

    The process of treating municipal and industrial wastewaters from 
homes and facilities across the United States is a tremendous 
undertaking, involving complex operations and processes to treat flows 
and return treated water to the environment. During these processes, 
chemical and biological constituents are removed and separated from 
wastewater, producing treated effluent that often is cleaner than the 
bodies of water into which it is discharged. The removed constituents, 
energy-rich biosolids, are then subsequently treated, in some cases 
anaerobically (without oxygen) to be used in various manners. The by-
product is a methane-rich biogas that can be used to produce 
electricity and heat.
    There are over 16,000 municipal wastewater treatment plants (WWTPs) 
in the United States, and approximately 540 of these plants 
anaerobically treat their biosolids.\10\ The biogas produced by this 
treatment process is most often flared at the facility. The United 
States Environmental Protection Agency published a report in April 2007 
that stated that less than 20 percent of the facilities with anaerobic 
digestion used their biogas for electricity or heat production.\11\ The 
USEPA estimated that if each of these plants were to convert the biogas 
to electricity, it would produce 340 MW of renewable energy and remove 
2.3 million metric tons of carbon dioxide--the equivalent of emissions 
from 430,000 automobiles--from the atmosphere.\12\
---------------------------------------------------------------------------
    \10\ United States Environmental Protection Agency Combined Heat 
and Power Partnership, ``Opportunities for and Benefits of Combined 
Heat and Power at Wastewater Treatment Facilities'' at page 1 (April 
2007). This report is available at: http://www.epa.gov/CHP/documents/
wwtf<INF>-</INF>opportunities.pdf
    \11\ Id.
    \12\ Id. at pages 7-8.
---------------------------------------------------------------------------
    General Electric's Jenbacher gas reciprocating engines provide an 
effective solution for wastewater professionals looking to optimize 
efficiency through the production of renewable energy. With more than 
50 years' experience, GE Jenbacher has an extensive installed base of 
over 460 units running at WWTPs, primarily in Europe where this 
technology application has been used for years. The GE Jenbacher gas 
engine product portfolio includes a wide variety of engine sizes 
ranging from an electrical production of 0.33 MW to 2.70 MW on 
anaerobic, digester gases. Additionally, the GE Jenbacher gas engines 
present some of highest electrical and thermal efficiencies along with 
lowest emissions available. Combined with the use of waste heat from 
the engines, the total electrical and thermal efficiencies from GE 
Jenbacher gas engines can exceed 85 percent.
    Depending on a wastewater treatment plant's processes and 
operations, the conversion of biogas to electricity and heat can amount 
to a reduction of 30 percent--70 percent of a plant's energy costs--the 
second leading cost (after personnel) facing wastewater treatment 
operators today. By way of example, the Strass Plant in Austria, 
located approximately four miles from the GE Jenbacher factory, is the 
shining star for energy efficiency at WWTPs--currently producing 120 
percent of the energy demand at the plant. The Strass Plant produces 
electricity to power all of its processes, and returns 20 percent of 
its demand to the grid from electricity produced by one GE Jenbacher 
J208 engine.
    As this technology continues to gain interest in the United States, 
GE Jenbacher gas engines will continue to be a leader in technology and 
research improvements. Future research will be dedicated to increasing 
electrical efficiencies, improving engine heat rates, and reducing 
emissions, such as Nitrogen Oxides (NOX) and CO<INF>2</INF>. A 
commitment to these endeavors will allow wastewater professionals to 
continue to protect their citizens by focusing on meeting their 
wastewater treatment requirements while saving millions of dollars on 
energy costs.

Conclusion

    In summary, Mr. Chairman, the nexus between power generation and 
water usage is one of the world's most complex and critical public 
policy challenges. GE commends you and your colleagues for your 
leadership in exploring the issues, and for your particular emphasis on 
the role of technology solutions. GE is proud of its work in this area, 
and we believe that the Congress and this committee can do a great deal 
to promote progress by bringing focus and facilitating partnerships 
between the U.S. DOE and the private sector. Our specific 
recommendations are:

        <bullet>  Greater investments in water reuse technologies and 
        establishment of facilities to pilot new technologies to 
        advance the state-of-the-art in membrane capabilities.

        <bullet>  Additional research, development and demonstration of 
        high efficiency natural gas turbine technology, as envisioned 
        in H.R. 3029.

        <bullet>  Increased research in system integration of 
        desalination and power generation processes and development of 
        the next generation technologies required to achieve this 
        integration at low cost.

        <bullet>  Additional research on and larger scale integration 
        and demonstration of organic rankine cycle technology for gas 
        turbine applications.

    Thank you, and I look forward to your questions.

                    Biography for Richard L. Stanley

    A graduate of the University of Notre Dame with a Bachelor's degree 
in Mechanical Engineering, Rick joined GE Aircraft Engines in 1980. 
With GE, he pursued his Masters Degree in Aerospace Engineering from 
the University of Cincinnati and is a graduate of GE's Advanced 
Engineering Program. During his career, he has held numerous 
assignments in turbomachinery blade, rotor, structures and combustion 
design and systems engineering. He has participated on many GE Aviation 
product designs, including the F110, F120, CF34, CF6, GE90, GEnx, T700, 
and F404 aircraft engines.
    Increasingly responsible roles include Engineering Manager for the 
Structures Center of Excellence, General Manager for the Combustion & 
Configuration Center of Excellence, General Manager for Engine Systems 
Design and Integration Department, and General Manager of the CF6 
Project Department. In 2003, Rick was elected a corporate officer of 
the General Electric company and promoted to Vice President and General 
Manager of the Aviation Engineering Division.
    In November 2005, Rick was appointed Vice President and General 
Manager of the Engineering Division for GE Energy, with 
responsibilities for research, development, technology and product 
design activities spanning the Power Generation Gas Turbine, Steam 
Turbine, Gasification, Controls, Generator, Wind, Aeroderivatives, 
Nuclear, Solar and Services segments.
    He has been awarded five patents, is an Associate Fellow of the 
AIAA, and is a member of the ASME. He is the 2005 recipient of the 
Distinguished Alumni Engineering award from the University of Notre 
Dame.

                               Discussion

    Chairman Baird. Thank you, Mr. Stanley. Here is our 
situation. This is a motion to adjourn. We have seven minutes 
left to go, and out of respect for the witnesses, I am going to 
stay here and miss this vote. I will suffer the consequences of 
missing a motion to adjourn vote, but I recognize my colleagues 
may wish to make this vote if they want. My understanding is 
the next vote will likely be a 15-minute vote, so my choice 
here by sticking, I get 20 minutes with the witnesses. Now Mr. 
Inglis is going to go do this. With his consent, we will just 
continue the hearing. If my colleagues want to go, that is 
fine. We will then reconvene after this series. So when I 
finally have to go to the first vote, we will reconvene after 
this here. So we have about 15 minutes or so at least to have a 
discussion. Again, it is up to each individual Member whether 
they want to head for this vote or not.
    I want to thank Mr. Stanley for acknowledging Mr. Tonko's 
excellent work on the legislation referred to, and we are 
thrilled that it was included in the energy bill. His long and 
distinguished background in energy has served this committee 
and this country well. Mr. Lujan, thank you for your presence 
as well.
    So Members are free. We have six minutes to go if you feel 
you want to make the vote. I will see you over there. But I 
will proceed with questioning at this point.

                    The Effects of Population Growth

    Again, thanks to all the witnesses for your outstanding 
comments. Let me introduce another variable that hasn't I don't 
think been mentioned to a great degree, and I am very curious 
about it. If memory serves me correctly, the recent census data 
suggests that the population growth in the next 40 years, U.S. 
population growth, is projected at around 139 million. That is 
an enormous addition in terms of demand on every portion of our 
infrastructure. And yet, I almost never hear it factored into 
energy, and in this case energy-water calculations, and it 
seems to me that the combination of just consumption for 
housing, for hydration, for irrigation and then in this point 
here, the nexus between energy and water, to what extent is 
this projected population growth being factored into our energy 
projections and/or our energy-water consumption projections and 
availability projections?
    Dr. Hannegan. Mr. Chairman, thanks for that question. It is 
really at the heart of the challenge when we look at water 
sustainability. One of my comments in my testimony was that at 
a fundamental level, in addition to the amount of water use by 
the population themselves, there is water use by the energy 
production that's demanded, in the base line that EIA puts 
forth, they project an increase in generation. That has to be 
met by an increasingly cleaner mix of resources. Many of those, 
including central station solar, nuclear, coal with carbon 
capture and storage, biofuels, both for transport and power, we 
are talking about some fairly thirsty applications. And so I 
think one of the challenges to the power sector is we recognize 
that people need water. We recognize that agriculture and food 
production needs water. Power generation tends to come at the 
end of the line. And so it really places an imperative on the 
need to get advanced cooling and waterless cooling technologies 
right for cooling power plants, and I think that adds urgency 
to this issue and the need to get the research and development 
going at a much faster rate than it is today.
    Chairman Baird. Would it be fair to also suggest that the 
increase in human direct demand, and indirect through 
agriculture for water, would produce an additional incentive 
for less water-intensive energy generation?
    Dr. Hannegan. Absolutely. I think if you look at what is 
going on in the Colorado River Basin out in the Southwest, you 
see that happening today. We saw that in the Southeast during 
the difficulty, the droughts in 2006, and we see it anywhere in 
the world that water resources are placed under pressure. It is 
generally the energy production that has to adjust. If you look 
at the power plants in South Africa where water is at a 
premium, nearly all of them operated by Eskom operate on dry 
cooling technologies but at a much higher cost, and that 
obviously impacts job creation, economic development and 
availability of power for people to live their lives.
    Chairman Baird. Any other person wishing to comment on that 
line of questioning?
    Mr. Murphy. Well, yes, I just would--you know, not only do 
you have that, but it is exacerbated by the fact that you do 
have some of the old facilities. So you have this double thing 
going on. But I think it is also a great opportunity that you 
can replace the coal plants and do this build-up as this 
country moves forward. The technologies are there as, you know, 
everyone talked about. There are improvements that can be made, 
but we can put together sensible systems and approach this 
thing.
    You know, up until now people haven't put that water 
equation really into the power plants, and it is great that the 
Committee is putting some light on that and that if we really 
start thinking about that, we can design power facilities with, 
like I said, hybrid-type cooling. And it is a cost issue. It is 
not really as much really a technical issue as it is, how do 
new facilities get permitted and how does that additional cost 
as a power developer, how does that get factored into saying, 
okay, you know, that has to go to the rate payer?

              Consideration of Water in Energy Legislation

    Chairman Baird. As you know, we passed through the House 
the major energy bill right before the July 4 recess focused 
predominantly on carbon. There is obviously offered by your 
testimony today to the degree that the new energy bill 
incentivizes renewables, wind, photovoltaic, and others, the 
water demand may be somewhat lessened naturally versus, say, a 
thermal-based coal plant. Would we have been wiser or would we 
be wise as we move through the conference and the work with the 
Senate to add some factor, a greater discussion of water 
consumption? I don't know how we would do it, but I just put 
this out there as a thought question. What would that look like 
if we did that?
    Dr. Johnson. Mr. Chairman, if I might comment.
    Chairman Baird. Please, Dr. Johnson.
    Dr. Johnson. First of all, I think it is an excellent point 
you raise, and I think globally if you look at where the 
population of the world is going by the mid-century, it is 
supposed to be up to I think around nine billion, which I think 
will place a tremendous pressure on these resources. Plus if we 
don't do something, which we are taking the first step with the 
bill in terms of carbon emissions, that is going to impact the 
climate change tremendously as well. I think in your second 
question, thinking about how we might do that, some of the 
recent appliance standards with regard to dishwashers and 
washing machines have both energy and water usage in them, and 
I think that is important.
    I think the biggest thing is figuring out how we can change 
behavior in terms of capturing the waste, the amount of water 
that we use, you know, from toilets to running faucets with 
toothbrushes. It is a significant amount of water that we waste 
and a significant amount of lighting and electricity that we 
waste that is not needed. And I think that that is the low-
hanging fruit that we have to figure out a way to get after. 
And I think standards, building standards, that affect energy 
use as well as water use are important, and we are moving in 
that direction trying to establish these standards. But that 
would be very helpful to have policies in that direction.
    Chairman Baird. Thank you.
    Dr. Hannegan. Mr. Chairman, related to that, there is an 
awful lot of inefficiency with water use in today's existing 
plants as my colleague, Mr. Murphy, has put forward. A lot of 
these existing plants are also going to be looking at new 
pollution controls to meet more stringent air quality 
standards. If there are changes in the way that we are dealing 
with coal combustion products as a result of recent incidents, 
that also is going to be an opportunity to modify those 
facilities. These facilities are going to have a number of 
different things that are going to be happening concurrently, 
we hope, but maybe separately and on different time scales. It 
is worth thinking about how do we treat those existing units as 
we move from where we are today to the low-carbon future we all 
want to get to in the future and whether there is an 
opportunity to look at sort of an integrated redo of some of 
these existing units. We are looking at bringing concentrated 
solar right onto an existing facility as a way of kind of 
hybridizing that power plant. Well, while you are making that 
modification, you might want to do something to improve your 
water use efficiency. And there are technologies that are on 
the shelf today that we can do and there are tests of 
technologies that are right at the cusp of being 
commercializable that we can do as well.
    So I think you have an opportunity. I know Senator Bingaman 
and the Energy Committee staff on the Senate side have energy 
and water-related provisions in the bills that they have been 
working on, and so there may be an opportunity when you ideally 
get to conference to have a good conversation about how you put 
it all together.
    Ms. Mittal. Mr. Chairman, our work on biofuels and 
electricity basically tells us that there are three trade-offs 
that you are making. This is a three-dimensional equation. You 
have got energy trade-offs, you have got water trade-offs, and 
you have got carbon trade-offs. And the choices that you make, 
you are either going to be positive on one, negative on 
another. There is no perfect equation because in each choice 
that you make, you are either positive on one front and 
negative on another. So these are the types of things that our 
work is showing, and that you do have to factor water in.
    One of the things that we are looking at in our 
thermoelectric work is that states that have primary 
responsibility for siting power plants are starting to take a 
harder look at their water impacts, especially in those states 
where there are long-term water shortages, where they are 
dealing with water constraints. Whereas other states where they 
have not had a history of water shortages, they don't have the 
more detailed processes to look at the water impacts of power 
plants. So it is again, as water supplies become more 
constrained, we think people are going to become more aware of 
how important it is to look at these three aspects.
    Chairman Baird. Excellent point.
    Mr. Stanley. Let me just say one last comment on that. I 
think at the highest level, having a national water reuse 
initiative would be something worth considering. Other 
countries have done this. I believe Israel has a 70 percent 
goal for water reuse. Singapore just passed an initiative for 
30 percent as their goal for water reuse. Having a national 
goal for water reuse at whatever level it is--I think we are at 
six percent today as a country--would drive more technology 
toward water reuse, that would accelerate technology, I think, 
into water reuse and a study of how we do waste water and how 
we can bring some of that back. I do think it is a worthy 
discussion and a worthy goal that ought to be addressed.

                         Climate Change Impacts

    Chairman Baird. I appreciate that. There is this 
relationship between what I refer to lethal overheating of the 
planet--I have said many times in this committee that global 
warming sounds like a nice thing and lethal overheating sounds 
like a bad thing, and acidification of our oceans, as Dr. 
Johnson said, is also a bad thing, especially when one 
considers that the oceans provide 50 percent of our oxygen. 
Lest anybody think this climate change thing is insignificant, 
ask yourself how you would like to do without 50 percent of 
your oxygen, and it is not a good thing. But one of the impacts 
is clearly availability of water. As we see, and we moved 
through this committee legislation to establish a National 
Climate Service, the idea being we would use our best available 
knowledge to try to make predictions about climatic events and 
how they would impact various aspects of our lives and our 
economy. And it seems that energy, particularly in light of 
this hearing, is critically impacted by that. You, in your 
testimony, several of you offered images where water levels in 
lakes or rivers, et cetera, had declined, and hence, the 
available energy production which is water dependent also 
declined. How is that being factored in as we look at--you 
know, we are trying to reduce those impacts, but how is that 
being factored in?
    I tell you what. I am going to ask you to hold that 
question, and I am going to recognize my colleague. Mr. Lujan 
has returned from the vote. I am grateful that he did, and so 
please hold my question and I will recognize Mr. Lujan for five 
minutes. Thank you.
    Mr. Lujan. Mr. Chairman, thank you very much. We can see 
the efficiency of being able to move back and forth quickly and 
sometimes the benefits that it pays.
    I can't thank you enough, Mr. Chairman, for holding this 
hearing. Coming from New Mexico and understanding the 
importance of being able to support a generation thinking 
outside of the box and looking to how we can embrace innovation 
as we move forward in each of these areas, especially the 
importance of water in the part of the country that I represent 
and what we can do to help accelerate this.

                  Funding Public-Private Partnerships

    One question that I have, Dr. Johnson, is having had a 
chance to visit with Secretary Chu and understanding the 
importance of moving forward Centers of Excellence and really 
embracing the technology, the breakthroughs that are taking 
place at our National Laboratories, the collaboration that is 
taking place at Sandia National Laboratories already, some of 
the explorations taking place up in Los Alamos, whether we are 
looking to see what we can do to be able to recycle water 
through exploration for oil and gas, some of the breakthroughs 
associated with storage and to truly understand what Mr. Murphy 
has done with storage capabilities and how that can break 
through, but you can tell me, Dr. Johnson, is there any 
thoughts as to how we can move forward without the existing 
requirements of the private match? You know, there is a 20 
percent match that is required from the public-private 
partnership to support the laboratory's research in many of 
these areas. Understanding that these breakthroughs will be 
game-changing for everyone, is there any thought to how we may 
be able to use that program or modify it so that we can 
encourage some of the partnerships in the event that we don't 
have that, the ability for some of those collaborations?
    Dr. Johnson. Thank you very much for the question. First of 
all, I firmly believe that these problems are so complex that 
we need to bring together the best and the brightest from the 
labs, from the private sector, from the universities, and to 
that end, we need to encourage them as much as possible. The 
work going on in the labs is not subject to the 20 percent 
match. The universities would be and industry would be as well. 
So it is not an issue for the labs, per se, but in terms of 
bringing together these teams and partners, sometimes it can be 
an issue, and we will be looking at what is appropriate to 
encourage these kind of relationships as we move forward.
    One of the ways that we are trying to bring together all 
the best and brightest in one place to address these very 
complicated issues are through the energy innovation hubs that 
have been proposed, and I think that will certainly help move 
some of these issues forward to be solved because it is 
critically important we get industry, the universities, the 
labs together to try and solve these critical issues, whether 
it is, you know, fuels from sunlight or solar electricity or 
batteries in storage. All the things that are related to how we 
use energy and how we use water for the betterment of society. 
So I am pleased that we will be hopefully moving forward with 
some of those initiatives as well.

                         Increasing Efficiency

    Mr. Lujan. Thank you, Dr. Johnson. And Mr. Murphy, Mr. 
Stanley, in the area with what you have been able to see and 
prove from every increase of percentage in energy efficiency 
and even the importance of storage, your thoughts on how we can 
accelerate. Going back to 2007, some of the legislation and 
acts that were moved forward by the Congress to encourage more 
storage exploration and how that will decrease the amount of 
water that is needed to be able to move to the energy that is 
being stored to make sure that it is fully dispatchable and the 
impact on energy as a whole in those areas.
    Mr. Murphy. Yes, that is a great point. I mean, when you 
look at the real demand, as we move forward, if we can get the 
power plants to be much more coincident with the demand. And so 
what you're looking at with some of the power plants on base 
load, particularly for example on a coal plant, it might be 
running all night long and using these valuable resources, and 
there may not be a demand that is necessarily justifying that.
    So the idea of having storage--there was a discussion 
about, you know, you have to trade water versus carbon dioxide 
versus energy--I think you can get all three and I think there 
are systems out there that exist today that we can achieve 
reductions in all of those, but it comes at a price. So that is 
the other dimension that, you know, happens.
    But you know, the reality is, you know, you pay for it now 
or you pay for it later. There is really not--it is just 
something that we have to move forward with.
    Mr. Stanley. I will add to that from a standpoint of the 
machinery itself, having the machinery operate more efficiently 
at part load, like nighttime. as opposed to being optimized at 
full load and then not optimized at part load, is a big 
technology as we move forward. Having optimized at part load, 
even in these areas that need electricity but they don't need 
it at nighttime, where storage is one option. Another option is 
also just reduce the amount of fuel that is required for these 
part-load periods during the day when a gas turbine, for 
example, still can be run but run very efficiently. Right now 
in some of the older technologies in our fleet of turbines that 
are out there, they are not very efficient during nighttime. 
They weren't designed that way. They were designed to run at 
full speed, full load during the day at peak load. And some of 
the new technologies which are actually being translated from 
the aviation world down into land-based gas turbines actually 
address those issues including the different temperatures 
during the day. A hot day is very hard on the efficiency of a 
turbine versus a cold day.
    So just looking at the design of the machinery itself and 
advancing that technology can have a big impact on reducing 
fuel and water use on these systems, even in these areas that 
have very low water areas to begin with.
    Mr. Lujan. Thank you very much, Mr. Chairman. I know my 
time is expired, and Dr. Hannegan, if you have an opportunity, 
if you can respond to that later, whether it is through 
questions today or in writing, I would be very interested to 
hear your thoughts on that a little.
    Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Lujan.
    Dr. Hannegan. I would be happy to do that.
    Chairman Baird. Mr. Inglis is recognized for five minutes.

                        Water and Nuclear Power

    Mr. Inglis. Thank you, Mr. Chairman. It is my understanding 
that nuclear power I believe is a wonderful way to make 
electricity, but it also has a trade-off, not just the waste 
but also uses a lot of water as I understand it. Some talk--I 
think I have heard this--of using it in combination with 
desalinization, is that a matter of heating up the wastewater 
and using that? Have you all been working on that, Mr. Stanley, 
or is that----
    Mr. Stanley. We are doing some research on that. It is 
usually in the waste heat of it. You can do it on a nuclear 
plant or even a gas turbine plant. But it is using the waste 
heat, the leftover heat, to basically evaporate the water if 
you will, leaving behind the solids in the waste water but 
evaporating the water and recovering, reusing the water in the 
cycle. So as opposed to taking it into the plant, using it and 
then discharging it away from the plant, it is a way to use the 
water in what we call a closed circuit so that we are not 
taking as much water from the stream but keeping it inside the 
plant.
    Many nuclear plants today use water. If they use it in a 
closed system, they lose a lot of it to evaporation during the 
evaporation process. And so they do consume a lot of water, a 
heavy amount of water, and this would help reduce that 
consumption.
    Mr. Inglis. Yes. I guess of course it is not really 
consumed, it is just moved from one state to another and then 
dropped somewhere else, right? But I guess it does have a local 
impact in that you are withdrawing a fair amount of water out 
of a stream. It will fall somewhere else, but the question is 
how far away, right?
    Mr. Stanley. That is correct.
    Mr. Inglis. So is it something that you would put on a list 
of real, feasible things about using seawater basically in that 
process? We have got a lot more of that than we do fresh water. 
We got a lot of population close to the shoreline in the United 
States. Does that make that attractive or is that questionable?
    Mr. Stanley. I think it is. No, I do believe it is 
possible. It is still early in the stage of system integration 
and simply cost, and the trick is getting the cost down to do 
that and the cost of the systems it takes to use that type of 
water, clean it and return it.
    Mr. Inglis. Does anybody else want to comment on that?
    Dr. Hannegan. Yes. Congressman, a number of nuclear plants, 
particularly those in California, my home state, do intake sea 
water as a method of cooling their activities. The challenge 
associated with that is the impact on marine organisms, on fish 
larvae and other species of concern, and one of the things that 
we are working on at EPRI are protective measures and 
alternative ways of getting the water into the plant that don't 
have as much impact on the marine environment. That is a big 
concern for EPA currently in the rule-making around the Phase 
II rule, the 316(b) provisions, and the Clean Water Act. We 
have done a lot of work looking at screens and intake 
mechanisms and different conduits to get the water into the 
plant.
    So that is one thing to keep in mind when you are thinking 
about seawater as an intake. Particularly in the coastal zone, 
it has the potential for some significant impacts.
    Mr. Inglis. If you take in a very large amount of water, I 
guess you don't raise the temperature as much. Is that another 
strategy is to cycle through a great deal of water and then----
    Dr. Hannegan. Yeah, that is--in fact, where nuclear plants 
take in a considerable amount of seawater, that is the goal, to 
reuse and recycle within that plant through a number of 
different cooling cycles. Each of course is progressively less 
efficient because of the difference in the temperatures. You 
can't extract as much heat each time through as the water 
gradually warms and warms and warms, and then you exhaust it to 
a cooling pond, if you will, where the water can then 
equilibrate with the atmosphere before being discharged back in 
the ocean. Section 316(a) of the Clean Water Act actually puts 
limits on the thermal differences in the water that you 
discharge back into the environment, whether it is a lake or an 
ocean body. Having thermal shock can be just as impactful on 
organisms as the physical shock of going through the system. So 
we have to work on getting as much cooling value out of that 
water but ultimately discharging it back into the environment 
in largely the same state in which we took it. And it is a 
matter of cost. In many cases, it is a matter of performance of 
the unit. As you use more and more of the water, you leave 
behind more and more of the stuff that was in the water, and so 
it can cause scaling and fouling and different impacts on the 
plant itself which are an issue of operations and maintenance.
    There are no easy solutions, sadly. Otherwise, we may not 
be having this hearing.
    Mr. Inglis. Thank you, Mr. Chairman.
    Chairman Baird. Thank you, Mr. Inglis. Mr. Lujan had a 
question he wanted to follow up on. I'll recognize him for the 
opportunity to do so.

                      More on Efficiency Practices

    Mr. Lujan. Dr. Hannegan, along the same lines of the 
question to Mr. Murphy and Mr. Stanley?
    Dr. Hannegan. If you could just recapture that for me?
    Mr. Lujan. Some of the benefits associated with the 
efficiency practices and I guess in your instance, the 
efficiency practices that invest your own utilities or 
generation or transmission companies are adopting, and even 
with how firm the utility commissions around the country are 
being with adopting those practices and to future generation 
and the possible benefit associated with utilities moving 
forward with more efficient approaches with consumption of 
water as they are generating power.
    Dr. Hannegan. Right. Thank you, Congressman. That is a very 
important issue for siting a new generation of plant. You hear 
it coming up more and more with utility commissions and even 
local communities. When you look at new generation in your back 
yard, one of the impacts in addition to the myriad others that 
are of concern is the water consumption and where is that going 
to come from. I think this is an opportunity for looking at co-
benefits. As I mentioned, these plants are also looking at a 
bunch of other different obligations in terms of their 
environmental footprint, and there are a number of technologies 
that can be employed in a new plant which give you multiple 
benefits: reducing air pollution, improving the efficiency of 
the thermal plant as far as greenhouse gas emissions is 
concerned, and then water consumption as well. Even as I 
mentioned before, if you've got a fossil unit with CO<INF>2</INF> 
capture and storage or if you have got nearby oil and gas 
operations that are creating produced waters, there is the 
possibility for new technologies to be involved there. Through 
some of the work that Mr. Stanley is working on with 
desalinization, it would be quite possible to use those 
produced waters or to use degraded sewage from the nearby 
community. The Palo Verde Nuclear Power Plant in Arizona does 
just that. It runs entirely off of the treated sewage waters 
coming from the nearby communities.
    So I think there are a lot of opportunities. Sometimes the 
challenge though is the utility commissions, as Mr. Murphy 
indicated, look at it strictly through the lens of lowest-cost 
power, and they are not looking perhaps at the whole lifecycle 
cost when you think about the impacts and the overall impact 
both economically and environmentally.
    Mr. Lujan. Thank you very much, Dr. Hannegan. Thank you, 
Mr. Chairman. I yield back my time.
    Chairman Baird. Excellent line of questioning. Thank you 
very much.

                   Water in Coal Carbon Sequestration

    My understanding is Mr. Tonko, we hope, is returning. We 
have got yet another vote call, but what I will do is ask a 
brief question on coal carbon sequestration. Hopefully Mr. 
Tonko will return, and then we will actually probably adjourn 
the hearing because there is a long series of votes and rather 
than making you folks wait that unpredictable amount of time.
    With that, talk to us a little bit about what the likely 
water demands would be if we had widespread coal carbon 
sequestration, and help us understand the distinction between 
use and loss of water in that process.
    Dr. Hannegan. I will take that one, Mr. Chairman. The 
likely impact, if you add in CO<INF>2</INF> capture 
technologies on today's power plants, you are looking at about 
a 30 percent reduction in both the power production and the 
thermal efficiency of that unit. And so as a result, you have 
to combust more coal or more natural gas to create the same 
amount of power output. That means you are pushing more heat 
overall through the system which results in a greater use of 
water for cooling. When you then talk about the compression, 
the clean-up of the gas on the back end, all of the other 
things that you have to do to get the CO<INF>2</INF> that has 
been captured ready for pipeline-quality specifications for 
transport and ultimately, you know, the kinds of specifications 
we are looking at in the underground injection program for 
disposal in the geologic reservoir, you are looking at about a 
doubling of current water use throughout that process. Now, 
much of that water goes through the normal cooling cycle, so it 
is ultimately recoverable. And if you are condensing out the 
evaporated water and reusing that in the plant, the consumption 
doesn't go up nearly as much. It is not a one-to-one 
relationship. But certainly the widespread adoption of CO<INF>2</INF> 
capture and storage, which we think is a key part of any 
climate mitigation program, is going to lead to increased 
demands by the electric sector for water in the decades ahead. 
Some of that can be mitigated through the new technologies that 
we have been talking about, but there again, it is the matter 
of getting those cooling technologies integrated with the new 
technologies we are employing for pollution control, the new 
technologies we are employing on the turbines themselves and 
the balance of the plant. I mean, we have a lot of things that 
work separately, but it is really the integration challenge 
that I think would be a center pole tent to any aggressive 
research program going forward.
    We have outlined in EPRI documents, which I am happy to 
provide for the record,\1\ you know, a fairly modest, if you 
look at other research activities going on presently throughout 
the Federal Government, a fairly modest $40 million that would 
get us started on those things, and we think that that would be 
a good investment.
---------------------------------------------------------------------------
    \1\ See Dr. Hannegan's submission for the record, the EPRI report 
program on technology innovation: An Energy/Water Sustainability 
Research Program for the Electric Power Industry [Appendix 2: 
Additional Material for the Record).
---------------------------------------------------------------------------
    Chairman Baird. I will personally look into that given the 
importance of the issue before us today and the relative amount 
of $40 million versus NextGen costs.
    My own personal belief is that we have staked a tremendous 
amount of our wager on first of all biomass in the area of 
ethanol which has huge, to my knowledge of the issue and it 
sounds like the GAO report confirms that, huge water 
consumption issues to grow the crops. And given the graph we 
saw earlier of the amount of water that goes through 
irrigation, that is not going to be reduced if we put ethanol 
from corn base with switchgrass as the Secretary mentioned. But 
I also think we have staked an awful lot on coal carbon 
sequestration, I personally think too much, and I will point 
for the record that we had testimony in our committee 
suggesting that likely commercial feasibility was not going to 
happen for 25 years and that a much more optimistic scenario is 
banked on as a predicate for the energy bill we passed. And I 
have really quite a bit of concern about that. And then when 
you add this water notion, 50 percent increase? Did I get that?
    Dr. Hannegan. Well, in some cases. There is a chart in my 
written testimony that is a result of some work that we have 
done with the National Energy Technology Lab. In some cases, 
particularly for an ultra super-critical pulverized coal plant, 
it is almost a doubling.
    Chairman Baird. I will be certain to look at that. I will 
ask the staff to make sure I get that. Mr. Inglis had a 
question.

                             Pricing Carbon

    Mr. Inglis. Thank you, Mr. Chairman. Mr. Stanley, GE was in 
favor of the cap-and-trade bill as I understand it, and of 
course, it may have the advantage of changing the economics, 
some of the economics, around. That is my hope. If it doesn't 
make it through the Senate, I hope we can talk about an 
alternative which is a revenue-neutral tax swap. It can be done 
in 15 pages, whereas this one is 1,200 pages. But in both 
cases, what we are attempting to do I suppose is attach a price 
to carbon because what I am gathering is you have got a lot of 
products that you could sell but the economics don't work 
because if you can belch and burn for free, why pay for the 
more sophisticated machinery, right? So IGCC, for example, why 
pay for that if you can get a freebie in the air and there is 
no accountability for the emissions, then belch and burn. I 
guess that is more of a statement than a question. It will give 
you an opportunity though to say that, yeah, we have got 
products that we can sell if the economics work, but you have 
got to attach a price to carbon in order to make the economics 
work. And that is a conservative concept it seems to me because 
what you are saying is no, we are not going to allow people to 
have a free good in the air that causes a market distortion. If 
you insist on accountability and say, listen, be accountable, 
this is a conservative concept. Then what you have is the 
economics change, and we sell a lot of product I think from 
Greenville which would be exciting.
    Mr. Stanley. We do, Congressman, and you are right. The 
theory I think that you are talking about is buying carbon, 
much as you have to buy fuel if you have a power plant that 
produces electricity. And if that becomes the case, whether it 
is a carbon cap or other means, if there is a value with 
producing carbon dioxide that we want to reduce, we have a 
broad range of products that make that a better situation, 
economic situation. IGCC, certainly one of those, it is a way 
to use our vast resources of coal and still be able to use that 
resource in a less water-intensive way and less CO<INF>2</INF>-
producing way than a pulverized coal plant, which as you say 
produces quite a bit of carbon dioxide. Gas turbine and gas 
turbine technology, for sure. Wind turbines, absolutely. Solar, 
and the next generation of solar which we haven't talked about 
today, but thin film solar which is coming and will be as my 
belief as pervasive as flat-panel TVs that you see today in the 
store, is coming. That technology is coming, and again, as the 
costs come down with scale, that will be affordable, and carbon 
policy will drive that even more rapidly. So we are absolutely 
in favor of some type of value for carbon.
    Mr. Inglis. That is great. Thank you. Thank you, Mr. 
Chairman.
    Chairman Baird. I thank Mr. Inglis. We are down to about 
5:48, but Mr. Tonko has got such an interest in this, I want to 
recognize him for some final questions if we can.

                      Greatest Impact Technologies

    Mr. Tonko. Thank you, Mr. Chair, and thank you to the 
panelists. Your information is of great assistance to us as we 
go forward with sound policy, and thank you, Mr. Stanley, for 
your kind comments.
    My question to you is, Mr. Stanley, of the energy 
technologies that you are ready to utilize, embrace, if the 
funding comes the way of GE. Are there ripple effects that you 
can imagine in those technologies that will come even beyond 
those first plans that you have for efficiency with the natural 
gas turbines?
    Mr. Stanley. There are ripple effects in many of the 
technologies. There are effects if we advance for example gas 
turbine technology. There are improvements that cannot only and 
not only will help land-based gas turbines but will also help 
aerospace turbines which use a lot of turbines and increase 
fuel efficiency.
    As we develop new materials, such as carbon matrix 
composites, a new material that we can use in the turbines, as 
was mentioned earlier today, turbines become more efficient the 
hotter that they operate. So the hotter that we can operate the 
turbine in temperature, the more efficient it becomes. Now, I 
will give you an example. Today's turbines, the metal inside 
the turbine bucket of a current generation turbine operates in 
an exhaust gas that is 500 degrees hotter than the melting 
point of the metal itself. So heat-transfer technology is 
vitally important just to make today's turbines survive. We 
want to push that temperature even higher, 500, 600, 700 
degrees higher than it is today. New materials like ceramic 
matrix composites will be the way there. Now, today they are 
very expensive, they are hard to make, they are hard to 
develop. We know very little about them, really. But if that 
technology succeeds, and it will, I fully believe that it will, 
that is not only good for land-based gas turbines, but it has 
direct application to aircraft turbines in aircraft around the 
world. Higher temperatures, better efficiency for aircraft as 
well as for land-based power plants.
    Mr. Tonko. Thank you. So what I am hearing here is that 
this may be a down payment for a lot of lucrative investments 
that can be made for efficiency sake or for development of 
emerging technologies that can be applied to the broader 
turbine environment?
    Mr. Stanley. That is correct, Congressman. The many other 
ripple effects will help the United States to maintain our 
leadership in high-temperature gas turbine design and aircraft 
turbine design. Jobs that are created at GE--we have an 
estimate, every job that we create in gas turbine technology 
manufacturing leads to five more jobs in our suppliers and 
contract engineering and other places in the economy. So it is 
a very powerful ripple effect, not just economically but also 
with jobs and----
    Mr. Tonko. Well, the energy self-sufficiency and job count 
is what is driving this great legislation, and I am just happy 
to hear the feedback from the industry and from those who will 
help lead us in this effort. So thank you so much. Thank you, 
Mr. Chair.

                                Closing

    Chairman Baird. Thank you, Mr. Tonko. We have got two 
minutes to go. We are going to have to hurry. I want to thank 
our witnesses for outstanding input today. The record will 
remain open for two weeks for additional statements for the 
Members and for answers to any follow-up questions that the 
Subcommittee may ask of the witnesses. I thank you for your 
testimony and for your indulgence as we were interrupted by 
votes. I appreciate very much your expertise and insights. 
Thank you, and with that the hearing stands adjourned.
    Mr. Inglis. Thank you, Mr. Chairman.
    [Whereupon, at 11:15 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by Dr. Kristina M. Johnson, Under Secretary of Energy, U.S. 
        Department of Energy

Question submitted by Chairman Brian Baird

Q1.  One cane effect of global climate change is a declining level of 
fresh water availability. How is DOE addressing the anticipated impacts 
of an increasingly burdened water supply and the consequent challenges 
to energy production?

A1. Much of the current domestic energy resource development and 
production depends heavily on the availability of adequate water 
resources, and it will take a concerted effort to address the impacts 
of climate change on water quality and availability. Legislation in the 
last thirty years has limited the thermal discharges and other 
environmental impacts from power plants, which has already placed a 
premium on regulatory agencies mandating--and industry adopting--lower 
fresh water usage technologies for new generation capacity. Climate 
change and even decadal scale climate variability (e.g., El Nino and La 
Nina cycles, which bring periodic droughts to different areas of the 
United States) also place a premium on fresh water usage. DOE is 
assessing energy efficiency measures and the role of alternative energy 
technologies, such as wind and wave power, that require less water 
resources in order to augment the traditional sources of domestic 
energy supply that require more water-intensive development and 
production.

                   Answers to Post-Hearing Questions

Responses by Dr. Bryan J. Hannegan, Vice President, Environment and 
        Generation, The Electric Power Research Institute

Question submitted by Chairman Brian Baird

Q1.  During our discussion on the water use of carbon capture and 
sequestration technologies, you referred to an EPRI $40 million 
research and development proposal to address the adoption and 
integration of new pollution control technologies with existing power 
plant cooling technologies. Please provide this information for the 
Committee record.

A1. In response to the Chairman's question for the record, please see 
EPRI's report outlining a $40 million, 10-year research program focused 
on reducing water consumption in thermoelectric power plants:

         Electric Power Research Institute. ``Program on Technology 
        Innovation: An Energy/Water Sustainability Research Program for 
        the Electric Power Industry,'' EPRI Report #1015371. Palo Alto, 
        CA: July 2007.

                                   

</pre></body></html>
